<html>
<title> - A REVIEW OF THE DEVELOPMENT OF DEMOCRACY IN BURMA</title>
<body><pre>[Senate Hearing 108-178]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 108-178
 
           A REVIEW OF THE DEVELOPMENT OF DEMOCRACY IN BURMA

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON EAST ASIAN
                          AND PACIFIC AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 18, 2003

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate






                        U.S. GOVERNMENT PRINTING OFFICE
89-837                         wASHINGTON  : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001









                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                 ------                                

                       SUBCOMMITTEE ON EAST ASIAN
                          AND PACIFIC AFFAIRS

                    SAM BROWNBACK, Kansas, Chairman

LAMAR ALEXANDER, Tennessee           JOHN F. KERRY, Massachusetts
CHUCK HAGEL, Nebraska                JOHN D. ROCKEFELLER IV, West 
GEORGE ALLEN, Virginia                   Virginia
GEORGE V. VOINOVICH, Ohio            RUSSELL D. FEINGOLD, Wisconsin
                                     JON S. CORZINE, New Jersey

                                  (ii)

  













                            C O N T E N T S

                              ----------                              
                                                                   Page

Brownback, Hon. Sam, U.S. Senator from Kansas....................     1
Burke, Kevin, President and CEO, American Apparel and Footwear 
  Association....................................................    32
    Prepared statement...........................................    34
Craner, Hon. Lorne W., Assistant Secretary, Democracy, Human 
  Rights and Labor, Department of State..........................     6
Din, U Aung, Policy Director, Free Burma Coalition...............    13
    Prepared statement...........................................    16
Joseph, Brian, Program Officer, Asia, National Endowment for 
  Democracy......................................................    22
    Prepared statement...........................................    25
Martin, Veronika, Advocate, Refugees International...............    38
    Prepared statement...........................................    41
McConnell, Hon. Mitch, U.S. Senator from Kentucky................     3
Rogers, Kenneth, Associate Dean of International Programs and 
  Director of International Services (emeritus), Indiana 
  University.....................................................    36

                                 (iii)

  











           A REVIEW OF THE DEVELOPMENT OF DEMOCRACY IN BURMA

                              ----------                              


                        Wednesday, June 18, 2003

                               U.S. Senate,
    Subcommittee on East Asian and Pacific Affairs,
                            Committee on Foreign Relations,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 2:30 p.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Sam 
Brownback, chairman of the subcommittee, presiding.
    Present: Senator Brownback.

            OPENING STATEMENT OF HON. SAM BROWNBACK,
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. The hearing will come to order. This is 
a hearing of the Subcommittee on East Asian and Pacific 
Affairs. We will be hearing about recent developments in the 
Southeast Asian country of Burma. This is a result of actions 
taken by the Congress in light of the recent crackdown in 
Burma, and in light of broader discussion of the United States 
toward the military regime in Burma. We have the author of this 
major bill, Senator McConnell, who will be first to testify. 
Before I go on with my statement, I want to say how 
appreciative I am of his great work to focus intensity and 
ability to move this legislation on forward. I appreciate that, 
and I know the people of Burma deeply appreciate that.
    During some ominous twilight hour on May 30 a band of 
brutes under the banner of the Union Solidarity and Development 
Association launched into an attack on a caravan transporting 
Aung San Suu Kyi and supporters of a goodwill tour. The 
resulting melee ended in an unknown number of people killed and 
injured and Aung San Suu Kyi imprisoned, along with 19 of her 
supporters in a nationwide crackdown on her National League for 
Democracy, the NLD, and the country's universities, which have 
proven to be a fount of democratic activism.
    Last week, the New York Times quoted a noted expert as 
saying if they can get away with it, this is the end of Aung 
San Suu Kyi, if not as a mythical figure, then as a real threat 
to them. If people accept that she can be locked away and 
nobody can see her, and that other leaders can be silenced and 
that the party can be silenced, then they've won the day.
    I am confident when I say that they have already lost. As 
Secretary Powell's comments in the Wall Street Journal stated, 
simply put, the attack on Ms. Suu Kyi, her convoy, and the 
utter failure of the junta to accept efforts at peaceful change 
cannot be the last word on the matter. I applaud the efforts of 
Secretary Powell in Cambodia addressing this and other 
important issues at the ASEAN Regional Forum, who has clearly 
asserted the United States' policy. The message is clear to the 
regime. Time is up for your tyranny.
    I am not asserting that our policies have come simply as a 
response to this latest crackdown. By contrast, as early as 
March, during a House International Relations Committee 
hearing, Deputy Assistant Secretary of State Matthew Daley 
stated, ``absent progress, we will be forced to consider, in 
conjunction with the international community, sanctions and/or 
other measures.''
    Ostensibly, the Secretary of State made a reversal of 
policy because of a steady buildup of egregious violations by 
the regime. The window for dialogue and engagement withered 
before our eyes. However, questions remain about the direction 
and commitment the U.S. has to executing this new policy. Upon 
what equities will we need to trade? Will there be strategic 
issues the U.S. would need to transcend if it were to pursue 
this policy? Can we expect adequate cooperation from our 
allies, regional partners, and other key players? Our witnesses 
have answers to most of these questions, and I look forward to 
hearing from them.
    My own view is that engagement with the regime, whether or 
not it was bearing fruit, has shamelessly failed. Systems of 
government matter. Unlike some of the other erstwhile communist 
states, fledgling democracies in the former Soviet Union, Burma 
does not operate under any pretense or suggestion that it is a 
democratic-oriented state. Not only does it not get it, the 
junta does not want to get it. For the U.S. to have the moral 
authority to move forward, we must impose sanctions, namely, 
import bans, sacrificing our own economic self-interest in this 
particular case; I think it can be very, very successful.
    The other measures which extend the visa ban for the 
regime's thugs, freeze and seize assets, ban remittances, and 
ban travel for U.S. citizens, are all measures to put the 
squeeze on the Generals. I'm hopeful that we're going to be 
able to work in an international coalition in this effort. Just 
last week, the Senate passed a resolution on Burma that allows 
the use of sanctions. Normally, I am strongly opposed to the 
use of sanctions, but in this particular case I think it is 
something that we have to look at very aggressively to send any 
type of message at all to this brutal regime.
    Let me conclude my comments by simply saying that, one 
personal note, a couple of years ago I traveled to the Thai-
Burmese border. It was on an issue regarding trafficking in 
persons. It was actually sex trafficking, and one of the 
premier places where that was happening in the world was along 
the Burmese-Thai border. The reason it was happening there was 
because the Burmese Government was running its citizens out of 
its country along that border, and a number of young girls were 
becoming prey to traffickers into brothels in Thailand and 
other places.
    This was a direct result of what the Burmese regime was 
doing to its own people, leading to this increase in 
trafficking in one of the biggest areas in the world. Burma is 
a tier three country; it just came out in the Trafficking in 
Persons Report. They don't care about the trafficking in 
persons, and it continues to happen unabated. This is a 
shameful situation that's happening as a result of the policies 
of the Burmese Government.
    I now have the pleasure of introducing the lead author of 
the resolution that passed the United States Senate last week, 
Senator Mitch McConnell, who has worked aggressively on the 
topic of our relations with Burma and putting pressure on the 
Burmese Government. Senator McConnell, I'm delighted to have 
you here, and the floor is yours.

               STATEMENT OF HON. MITCH McCONNELL,
                   U.S. SENATOR FROM KENTUCKY

    Senator McConnell.  Thank you very much, Mr. Chairman, and 
thank you for your interest. The timeliness of this hearing 
could not be more obvious. I appreciate your support as well as 
Chairman Lugar's and Ranking Member Biden's support for the 
Burmese Freedom and Democracy Act, which we passed out of the 
Senate, as you indicated, just last week. That 97-to-1 vote 
underscores the Senate's support for the struggle for freedom 
in Burma. We sent a very powerful message to Rangoon, that the 
freest nation on earth is leading the charge to defend Burma's 
courageous democrats, including Nobel Laureate Aung San Suu 
Kyi.
    As Burma's history informs its future, a cursory 
examination of the past should discourage us from believing 
that strong words from Senators alone will cause the thugs in 
Rangoon to change their ways. The illegitimate Burmese junta 
was born in blood, and the leaders of the regime have 
maintained their grip on power through violence and 
intimidation ever since. For over 40 years, from the military 
coup led by General New Win in 1962, until the murder of 
democratic dissidents just this last month, the generals who 
run things in Rangoon have brutalized their political 
opponents, terrorized the Burmese people, and driven the 
Burmese economy right into the ground.
    Every time the junta has been threatened by the forces of 
freedom and democracy, it has violently lashed out against its 
critics. We saw this during the 1988 pro-democracy 
demonstrations in Burma, again in the 1990 elections won by the 
NLD, and most recently on May 30 when, as you indicated, Mr. 
Chairman, the ambush on Suu Kyi's convoy occurred that killed 
and injured scores of democrats.
    Despite the murder and the mayhem, the SPDC has yet to 
extinguish the flames of freedom in Burma. What has been most 
impressive is the courage and determination of Suu Kyi and all 
Burmese democrats in the face of this incredible repression. 
They simply refuse--simply refuse--to surrender the principles 
of freedom, human rights, and the rule of law to this abusive 
regime.
    United States sanctions on Burma are a good first step, and 
will be watched. Indeed they are being watched around the 
globe. But our actions will not be truly effective until our 
European allies and Burma's neighbors also place pressure on 
the junta. There are many reasons why they should do this. 
First, the world's democracies have an inherent obligation to 
assist other freedom-loving peoples to achieve their 
aspirations for democracy and the rule of law. This is even 
more true when freedom is under attack, as is happening in 
Burma.
    Second, Mr. Chairman, the SPDC poses a clear and present 
danger to Burma's neighbors. Burma is a major exporter of 
narcotics, small arms, HIV/AIDS, instability, and disease, to 
say nothing of the forced trafficking of women and children as 
indentured sex workers, which the Chairman has already 
referenced. China and Thailand already recognize the growing 
HIV/AIDS and narcotics problems spilling over Burma's borders 
into their own countries.
    As the recent SARS epidemic has illustrated, disease knows 
no borders, and it is apparent that all transnational issues 
that stem from the SPDC pose long-term threats to the region 
and beyond the region.
    Finally, the junta's brutal attack on democracy in Burma 
received swift condemnation from foreign capitals. Even ASEAN, 
the Association of Southeast Asian Nations, now meeting in 
Cambodia, can no longer ignore this crisis festering in its own 
backyard. U.N. Special Envoy Razali Ismail lashed out at ASEAN, 
saying, ``constructive engagement is just an excuse for 
perpetuating the status quo. ASEAN should be very embarrassed 
at what is happening in Burma.''
    Maybe ASEAN is embarrassed. The comments of nine members 
earlier this week for Suu Kyi's release is a welcome departure 
from ASEAN's policy of noninterference in other member states' 
affairs, but words must be backed up by concrete actions. ASEAN 
members collectively and independently should consider similar 
measures proposed in the Burmese Freedom and Democracy Act, 
including travel restrictions and freezing assets of the SPDC.
    On this latter point, Mr. Chairman, Razali indicated that a 
portion of the junta's assets may be in Singapore. Perhaps the 
Senate should discuss this matter when the Singapore Free Trade 
Act comes to the floor for consideration. Some of Burma's 
regional neighbors have been more aggressive in seeking to 
curry favor with the military junta. Bidding for despots is 
never a safe bet, and I would encourage those countries, 
including Japan, India, Malaysia, China, and Thailand to 
rethink the dangers inherent to cooperating with an 
illegitimate regime.
    Further unrestrained competition between China, Japan, and 
India for greater relations with Rangoon may create unintended 
and unproductive demands of its own. The Council on Foreign 
Relations' Independent Task Force on Burma released its report 
just this morning. It contains numerous policy recommendations 
that the administration and the U.N. should consider and 
implement.
    I am pleased to have served on that task force, along with 
Senators Lugar and Feinstein, and want to encourage the State 
Department to move quickly on one particularly timely 
suggestion. America should press the U.N. to convene an 
emergency Security Council meeting to sanction Burma.
    Let me add one recommendation not included in the task 
force report. Diplomatic relations with Burma should be 
downgraded by sending Burma's Ambassador in Washington back to 
Rangoon until such time that Suu Kyi and all political 
prisoners are freed. I sent a letter to Secretary Powell this 
very morning suggesting a downgrade in relations, and encourage 
other interested Members to do the same.
    If the international community has the political will to 
stand for freedom in Burma, change can come to that beleaguered 
country. America can lead in that effort, but we cannot do it 
alone. It is in the interests of the United States, Europe, and 
all of Asia that a solution to Burma be achieved. Absent such a 
resolution, the major exports from Burma to the region will 
continue to be drugs, disease, and refugees. Those are the 
major exports from Burma right now, drugs, disease, and 
refugees.
    Let me close, Mr. Chairman, by saying that the full range 
of sanctions cannot be imposed against Burma soon enough. 
However, there must be concrete progress and a meaningful 
dialogue between the SPDC, the NLD, and ethnic minorities 
before any pressure is lifted. It's not enough simply to free 
Suu Kyi and other political prisoners. This game that the junta 
plays of catch and release has gotten old. Pressure should only 
be lifted when a dialogue leads to a successful conclusion of 
Burma's struggle for freedom.
    Thank you very much, Mr. Chairman, for the opportunity to 
be here today.
    Senator Brownback. Thank you, Senator McConnell, for your 
statement and the power of it, and I appreciated all the 
specifics that you put in it as well. It's a very complete 
statement and a very good one. It strikes me anywhere around 
the world that when you see evil as concentrated as what we 
have in the leadership in Burma, the thing you do with it is 
not to negotiate with it. You confront it and you deal with it, 
and you face it; you've put forward a number of very specific 
items here.
    Let me ask you, in your review of actions taken by other 
countries to date, have the Europeans been stepping forward on 
dealing with Burma? Is there any indication that they will be 
putting additional pressure on Burma?
    Senator McConnell.  Not to the extent that I would like, 
and I think the Europeans ought to join us. We have had some 
differences recently over Iraq policy. This ought to be 
something that we can all agree on.
    And I, like you, am typically skeptical of sanctions, but 
there is one good example in recent history where a 
multilateral sanctions regime worked and actually brought about 
regime change, which is what we are seeking here. That was 
South Africa where the entire world literally treated the South 
Africa Government as a pariah. It was so isolated from the rest 
of the world as a result of its own internal policies, very 
similar to this, that it did indeed hasten the end of the 
apartheid regime.
    So there's every reason to believe that an effective 
international sanctions regime could well get the job done in 
Burma, and I'm hoping that the United States is going to lead 
and the Europeans will follow. Of course it's very important 
for the ASEAN countries to do a good deal more than they did 
just the day before yesterday--they called for the release of 
Suu Kyi. Maybe they thought that was a big deal, because they 
typically don't comment on internal affairs in ASEAN countries; 
but the release of Suu Kyi is not enough, and letting Razali in 
to see her for 15 minutes is not enough.
    Seeing is not freeing. First, she needs to be out, free to 
go about the country, and that needs to lead to an orderly 
transition to recognize the outcome of the election in 1990. I 
believe that with the U.S. in the lead, with our prestige at an 
all-time high throughout the world, this is the time to get 
multilateral sanctions regimes in place around the world, and I 
think it will make a difference.
    Senator Brownback. The Thais have been a good ally of the 
United States for a long period of time, and yet have been slow 
to move forward on addressing the issue of Burma. Lately, they 
have made some stronger statements here, but are we seeing 
enough progress being made, or push made by Thailand?
    Senator McConnell.  No. The Thai Prime Minister met with 
the President a week ago Tuesday. I met with him as well. They 
have had, as the Senator knows, a policy of constructive 
engagement, which basically means they're doing business with 
the thugs. I think the Thais need to reverse that policy. The 
President himself mentioned that to the Thai Prime Minister in 
their meeting. I and others certainly mentioned it up here. I 
think that is a policy that clearly won't work.
    The Thais could potentially have the greatest impact on the 
Burmese regime, because they're right next door. I hope the 
constructive engagement policy will change and that they will 
join us in an international sanctions regime that can actually 
squeeze the junta right out of power.
    Senator Brownback. Senator, thank you very much for your 
testimony, and I appreciate all of your suggestions.
    We will next call up Hon. Lorne W. Craner. He is the 
Assistant Secretary for Democracy, Human Rights, and Labor at 
the State Department, and he will be the next panel 
presentation.
    Mr. Craner, thank you very much for joining us. Your full 
statement will be made a part of the record. You're welcome to 
summarize or to deliver off that statement, however you would 
choose. We're delighted to have you here.

    STATEMENT OF HON. LORNE W. CRANER, ASSISTANT SECRETARY, 
     DEMOCRACY, HUMAN RIGHTS AND LABOR, DEPARTMENT OF STATE

    Mr. Craner.  Thank you very much, Senator. Normally I 
actually don't read statements at length, but I would like to 
read this one; because the administration has a few things to 
say, and we would like to say them publicly.
    Mr. Chairman, thank you for holding this important and 
timely hearing. It is with a feeling of outrage and disgust 
that I appear here today, because tomorrow a courageous 
champion of democracy, Aung San Suu Kyi, will be spending yet 
another birthday, her 58th, in detention. The Burmese junta 
must release Aung San Suu Kyi immediately and resume a dialogue 
with the opposition to formulate with them a plan for 
democratization in Burma.
    In light of the recent outrageous events in Burma, I will 
be updating you on the State Department's current strategy to 
respond to those events and reiterating this administration's 
unwavering commitment to support the long-suffering people of 
Burma as they battle for democracy, human rights, and freedom. 
Both the President and Secretary of State have taken a personal 
interest in Burma, and many of my comments echo those of the 
Secretary in his recent editorial in the Wall Street Journal.
    Our worst fears for democracy in Burma have been realized. 
We have always doubted the sincerity of the junta's claim to 
desire a peaceful transition to democracy. Now we know our 
doubts were justified. The orchestration of the ambush of Aung 
San Suu Kyi and her supporters on May 30 and the refusal to 
account for what has happened leave no room for debate.
    The junta, calling itself the State Peace and Development 
Council, rules through fear and brutality, and with complete 
disregard for the rule of law, basic human rights, and the 
hopes and welfare of the Burmese people. The junta's recent 
actions make clear the depths to which these thugs will sink to 
retain power. Our response must be equally clear.
    We commend the bipartisan efforts of Members of Congress to 
shine a spotlight on human rights in Burma. We also commend the 
Senate for passing the Burmese Freedom and Democracy Act 
sponsored by Senator Mitch McConnell, who has always been a 
great advocate for liberty in Burma for now over a decade.
    The State Department supports the goals and intent of this 
bill, and we are working on several actions to increase 
pressure on the SPDC. Already, we have extended our visa 
restrictions to include all officials of the puppet 
organization of the junta: the Union Solidarity and Development 
Association (USDA), and the managers of state-run enterprises, 
so that they and their families can be banned as well.
    The United States already votes against loans to Burma from 
IFUs like the World Bank. In addition to our existing 
sanctions, we are now working on freezing the financial assets 
of members of the SPDC and banning remittances to Burma. We are 
also considering an import ban. Finally, we hope to place 
restrictions on travel to Burma.
    As we strengthen our own set of sanctions, we do so in 
conjunction with the E.U. Earlier this week, the E.U. began 
implementing its own strengthened common position which will 
also extend an asset freeze and visa restrictions to leaders of 
the USDA and managers of state-owned companies. To be truly 
effective, however, Burma's neighbors must join us in 
increasing pressure on the SPDC. It is time that Asian 
countries take responsibility for the actions of their Burmese 
neighbor, the junta that destabilizes the region and smears the 
reputation of a regional institution like ASEAN.
    As we speak, the Secretary is currently having frank 
discussions at the ASEAN Regional Forum about Burma with both 
members of ASEAN and other countries in attendance, including 
China. ASEAN loses credibility when it allows one of its 
members to flout its previous commitments to the organization. 
It is time that ASEAN members act decisively and firmly to 
address the problems in Burma that affect their region. We 
recognize their recent statement in favor of national 
reconciliation as a first step. We also support their plans to 
send a troika delegation to Rangoon, but we need to see more.
    The SPDC's renewed campaign of violence and repression 
against the NLD and Aung San Suu Kyi shows the junta's blatant 
disregard for the basic rights of the Burmese people and the 
desire of the international community to see those rights 
protected. The most recent crackdown is just one link in a long 
chain of appalling behavior against the people and the nation 
that the military regime claims to represent.
    The SPDC's disregard for human rights and democracy extends 
to every conceivable category of violation. The junta 
suppresses political dissent by censorship, persecution, 
beatings, disappearances, and imprisonment. It harasses ethnic 
minorities through brutal campaigns against civilians. It 
sharply curtails religious freedom. It subjects its people to 
forced labor. It recruits children to serve in the military, 
and then brutalizes them.
    The litany of abuses in ethnic minority regions is 
especially deplorable: widespread and brutal rapes, tortures, 
murders, forced relocations, forced labor, confiscation of 
property, and suppression of religious freedom in villages in 
the Shan, Karen, Kayah, Mon, Rakhine, and Tenasserim Divisions. 
The violations of the basic human rights of these minority 
peoples have devastating consequences that extend from 
individuals and their families and communities, to the region 
and the world.
    The widespread use of forced labor by the SPDC, including 
the forced conscription of children into the army, has been an 
ongoing concern to the U.S. and the International Labor 
Organization. Forced labor is one of the most egregious 
violations of worker rights. Since the ILO's request to its 
constituents in December 2000 that they review their relations 
with Burma in light of the system of forced labor, it has been 
trying to work with the SPDC to eliminate forced labor. As the 
ILO liaison officer in Rangoon said recently, forced labor 
continues to be a serious problem, especially in border areas 
controlled by the military.
    Our recent report on trafficking in persons, released just 
last week, sheds further light on the problem and the Burmese 
regime's insufficient response. The SPDC has tried to appease 
the ILO with slow increases in the level of their cooperation 
with them, but this has yet to lead to any serious actions to 
combat the problem.
    In May, the SPDC and the ILO agreed on a plan of action 
which, if implemented, would have begun to produce some 
substantive progress. The ILO decided this month, however, that 
the climate of uncertainty and intimidation created by the 
events of May 30 did not provide an environment in which the 
plan could be implemented credibly.
    Forced labor is yet another area in which the SPDC 
continues to evade its responsibility to protect the basic 
rights of the people of Burma and show its disdain for the rule 
of law.
    Throughout Burma, there is no freedom of association, no 
freedom of expression, and no freedom of the press. Well over 
1,000 political prisoners languish in Burma's jails, and the 
arrests and unlawful detentions continue. In addition to Aung 
San Suu Kyi, at least 100 NLD supporters were detained or are 
missing or dead after the incident in late May. NLD leaders, 
both young and old, were targeted in this assault. Today, we 
fear for the welfare of senior leader U Tin Oo, who reportedly 
was injured, and whose whereabouts remain unknown.
    We have not forgotten, nor will we forget, any of these 
brave individuals who put their lives on the line over the past 
two decades to stand, as others have before them, for justice, 
democracy, freedom, the rule of law, and the right to be heard. 
Together with the international community, we have pressed for 
the immediate and unconditional release of all political 
prisoners at every opportunity. We will continue to do so until 
every prisoner is released to live a life in freedom and peace.
    We will also continue to report honestly and accurately on 
the crimes of the SPDC in our reports on human rights, 
religious freedom, and trafficking in persons and drugs. The 
truth will not be hidden. The oppression of an entire nation 
must not stand. The international community should pull 
together as never before to put an end to the unchecked abuses 
perpetrated by this illegitimate and brutal junta. The Generals 
must learn that such appalling behavior will deny them any of 
the benefits of participation in the global community, and 
eventually will deny them the ability to maintain the power 
they stole from the legitimate democratic leadership of Burma 
in 1990.
    Thank you, sir.
    Senator Brownback. Thank you very much.
    Let me ask you a couple of things, starting off with 
countries in the region and how they're doing on dealing with 
the government in Rangoon. What's been the communication you've 
had with China on its relationship with Burma, its support for 
the military government, and what's been the Chinese response?
    Mr. Craner.  Insufficient for what we would like. There is 
no evidence that they're willing to change their attitude on 
Burma neither in international fora nor bilaterally.
    Senator Brownback. This, in spite of the things that have 
happened here, the ambush that happened on Suu Kyi, the ongoing 
problem? The Chinese have not changed their position towards 
Burma?
    Mr. Craner.  No, they have not.
    Senator Brownback. China is a major supplier, a major 
military supplier to the Government of Burma. Does that 
continue to be the case?
    Mr. Craner.  That continues to be the case.
    Senator Brownback. How do they justify this position given 
this takeover by a military government, the trafficking, 
narcotics trafficking, sex trafficking that is taking place 
right next door to them? They can't deny that it occurs, or do 
they?
    Mr. Craner.  No, they don't deny that it occurs, but you 
have to remember that, given the nature of the Chinese regime, 
the way they would view the regime in Burma, they are obviously 
affected by some of these problems. There is a drug problem, a 
big drug problem in southern China along those borders, and 
they recognize that trafficking in China needs to be cleaned 
up. They have taken some acts over the years, but they are not 
yet ready, at this moment at least, to increase their pressure 
on the Burmese junta.
    Senator Brownback. What about Thailand? What has the Thai 
response been?
    Mr. Craner.  The best way to look at this is to look at the 
region and decide as a group, are they moving? I think as 
Senator McConnell noted, they have moved in terms of 
statements. They are talking about sending a group to Rangoon 
to push the regime to release Suu Kyi and open up. I don't 
think that is enough, but I also don't think we should 
underestimate that movement.
    My experience in watching regimes around the world is that 
the most useful pressure can come from the United States and 
Europe, but it is at least as important to have the neighbors 
involved in pressuring a regime to change. It need not include 
economic sanctions against a regime in their neighborhood. The 
regime in their neighborhood has to get the sense that their 
neighbors have tired of them before they look at changing.
    Senator Brownback. Is that message being convened by ASEAN?
    Mr. Craner.  I think the Burmese regime was shocked by the 
change, the statement that was made by ASEAN. I don't think it 
expected that at all. I think that was an important thing, 
though it looks insufficient to us, but I think the Burmese 
regime has begun to get the message, as it should, that it is 
an embarrassment to the other countries in the region and that 
the other countries are tiring of having this kind of mess in 
their neighborhood.
    Senator Brownback. I would think they would at least convey 
that, or grow weary of the trafficking, drug trafficking, 
trafficking in persons, the sex trafficking. Do you get 
comments from any of the ASEAN countries about that?
    Mr. Craner.  We do, but as you know well, in many of the 
countries in ASEAN, Burma is not the only country with these 
kinds of problems. In fact, it's not the only tier three 
country in Asia. I think what is more important is the kind of 
pressure that we and others are putting on Burma's neighbors in 
the region to say, we've had enough, and you have got to get 
past this policy of constructive engagement and have a more 
useful and forceful policy towards the regime in Burma. I think 
that is what will cause them to change, to become embarrassed, 
like I said, by the mess in their neighborhood.
    Senator Brownback. What about the Europeans? What has been 
the response by the Europeans to Suu Kyi's arrest and the 
attack on her caravan?
    Mr. Craner.  Earlier this year, they said that they were 
going to wait until October to see if anything changed in 
Burma, and on Monday they announced that they weren't going to 
wait until October to see if anything changed. Instead, they 
were going to impose the sanctions, which are very similar to 
ours, that they had originally agreed to withhold until 
November. That's why, in this case, nobody should be mistaken 
that these are unilateral penalties by the United States 
against Burma. The E.U. added to its arms embargo, and 
similarly to our actions, added to its visa bans and assets on 
more than 150 officers in the junta.
    Senator Brownback. So is it fair to say that the United 
States and Europe are walking very closely together on dealing 
with Burma?
    Mr. Craner.  Yes. I have to tell you, I think we were 
leading. I think we moved much more quickly both here in the 
Congress and in the administration than was the case in Europe, 
but we have always for some years tried to walk beside Europe 
on these issues to make sure that the maximum pressure possible 
is brought against Burma.
    Senator Brownback. What about Senator McConnell's series of 
suggestions that he has put forward that are very, very strong 
positions, the lead one being downgrading relations, a letter 
to Secretary Powell that he was sending, and then also an 
emergency U.N. meeting to discuss sanctioning Burma. What's 
your view on the part of the administration of those two items?
    Mr. Craner.  I'm gong to let the Secretary answer the 
letter on downgrading relations, because that just came in this 
morning. On the U.N. meeting, it is a good idea; but one needs 
to consider what happens at the end of the day when the meeting 
is over, and I think the suggestion was in particular for a 
Security Council meeting. If one or more of the members of the 
Security Council, especially the permanent members, were to not 
want to see sanctions, that would not be a good end of the day 
at the U.N.
    Senator Brownback. But let's play that out. Let's say that 
China does not want to see sanctions. Doesn't that expose right 
there the major problem, or one of the major problems, in the 
Chinese support for this military dictatorship that is treating 
its people so poorly? Wouldn't that even of itself be 
constructive and instructive?
    Mr. Craner.  I think it would be instructive, but I don't 
think it would add to our knowledge of Chinese policy. What I 
would hate to see is the Burmese regime trumpeting a failure by 
the U.N. to bring sanctions as a victory for them; that they, 
the SPDC, evaded sanctions by the U.N.; and for them to tell 
people at home that nobody outside cares about them.
    Senator Brownback. Do you have any initial review of where 
the U.N. members would be, the Security Council members would 
be on a series of sanctions against Burma?
    Mr. Craner.  If you looked at the slate, most of them would 
be interested in that; but again you have the issue of the 
permanent Security Council members having a veto, and of 
exactly how many votes you would get for that. It is definitely 
an attractive idea for the beginning of the day when it 
happens. I'm not sure it would look so good at the end of the 
day.
    Senator Brownback. So what you're saying to me is that 
we're going to need to build, bilaterally, pressure around the 
world with a number of different countries in building up the 
pressure on Burma.
    Mr. Craner.  Yes. That is something we are doing, and we 
want to do, including with China already, not necessarily aimed 
at a U.N. Council session. In general, that is something in 
which we are redoubling our efforts as we speak.
    Senator Brownback. I want to ask about drug production and 
movement out of Burma. There have been press reports earlier 
this year indicating some question and discussion about heroin 
production, and other illicit drugs, closely being linked to 
top-ranking Burmese officials and the Burmese armed forces.
    I'd like to know, is that accurate from the 
administration's perspective, and is the United States taking a 
position that Burma is not cooperating in the war against 
drugs, narcotic movement, production, and is indeed a state 
runner of drugs? Could you inform me of the administration's 
view and position on drug production and drug movement in and 
out of Burma?
    Mr. Craner.  I think the most instructive thing is that 
earlier this year we refused to certify them as cooperating in 
the war on drugs. They had tried to persuade us in Rangoon and 
elsewhere that they were cooperating, but we found the evidence 
insufficient to be able to certify them in our report to 
Congress that we put forth every year. That is the bottom line. 
There are just a handful of countries where we're unable to do 
that in the world, and Burma is one of them.
    Senator Brownback. A handful of countries----
    Mr. Craner.  That we were unable to certify as cooperating 
in the war on drugs.
    Senator Brownback. Okay, so indeed that there is drug 
movement out of Burma and into the region----
    Mr. Craner.  Absolutely.
    Senator Brownback [continuing].----and globally as well. 
Mr. Craner, thank you very much for being here to testify. The 
administration has taken a strong stance, and I do hope and 
pray for the future of Burma and the Burmese people that we are 
successful in putting pressure on this military dictatorship 
that has caused so much suffering amongst its own people and 
throughout that region and throughout the world.
    Mr. Craner.  First of all, let me thank you for having the 
hearing. Second, on behalf of the administration, I want to 
thank the Senate and the House. We have been able to walk with 
the Europeans on this, but we have also, I think, been very 
united as a United States Government on this. I think that is 
very, very important. The third thing I would say is that if 
these penalties don't work, we may be coming back to you, as 
Secretary Powell indicated in the Wall Street Journal, to put 
more and more pressure on the regime and we look forward to 
working with you on that.
    Senator Brownback. Thank you very much, Mr. Craner.
    Now, I'd like to call the next panel.
    U Aung Din is policy director of Free Burma Coalition here 
in Washington D.C.; Mr. Brian Joseph, program officer for Asia, 
the National Endowment for Democracy, also in Washington; Mr. 
Kevin Burke, President and CEO of American Apparel and Footwear 
Association; and Mr. Kenneth Rogers, Associate Dean of 
International Programs and Director of International Services 
(Emeritus) Indiana University; and finally, Ms. Veronika 
Martin. She's an advocate for Refugees International.
    I want to advise the panel and the hearing room that there 
was previously scheduled a vote for 3:15. It has not been 
called yet. We will start the panel, but we may have to take a 
brief recess while I go over to vote, but rather than wait and 
see whether we're voting, I thought we would go ahead and get 
started.
    Mr. U Aung Din. Let me say to the whole panel as well, we 
will receive your entire statement into the record. If you care 
to summarize, because it is a large panel, that would probably 
be best, and your full statement will be in the record.
    Mr. Din.

           STATEMENT OF U AUNG DIN, POLICY DIRECTOR,
                      FREE BURMA COALITION

    Mr. Din.  Mr. Chairman, thank you very much for giving me 
the opportunity to speak on behalf of 50 million Burmese who 
are locked in a battle with an illegitimate military regime to 
bring peace, democracy, and human rights to our country. My 
name is Aung Din. I sit as a director of policy for the Free 
Burma Coalition, an organization based in the United States 
with national and international chapters.
    I would like to thank you, Senator Brownback and Senators 
Mitch McConnell and Feinstein and the members of the United 
States Senate for the overwhelming bipartisan vote to approve 
the Burma Freedom and Democracy Act last week. By supporting 
this legislation, you've sent a clear message to the people of 
Burma that you support our struggle for freedom. I ask the 
House to act on this legislation soon.
    Since you have already heard much about the events 
surrounding May 30, 2003, I would like to tell you about my 
personal account and discuss the many different ways that the 
people of Burma are working to get rid of our country's 
dictatorship.
    In 1988, I was a student at the Rangoon Institute of 
Technology when I and many of my fellow students helped to 
organize a nationwide demonstration that almost overthrew the 
military government. We marched proudly in front of the 
American embassy and waved our banners, because we knew that 
Americans believed in freedom and democracy. We avoided the 
Soviet embassy for the same reason.
    Tragically, as millions of people marched on the streets 
the military regime fired on us. Up to 10,000 people were 
murdered in a matter of weeks, including students, women, and 
even infant children. Those who survived were jailed and 
suffered daily torture sessions.
    Mr. Chairman, this was one year before the fall of the 
Berlin Wall. Unfortunately, because the military refused to let 
any international news media inside the country, no one knew 
what happened to us. After seeing my colleagues gunned down on 
the streets, I was very scared; but I knew I could not give up. 
I continued to organize demonstrations and protests, and 
eventually I was captured by the regime.
    When they arrested me, they handcuffed me, threw a hood 
over my head and pulled me off the bus I was riding. I was 
taken to a military interrogation center where I was held with 
no food, no drink, no toilet, no sleep for one week. My hood 
was never removed. Successive shifts of interrogation officers 
beat, kicked, and hit me. When I asked for the water, they 
laughed at me. When I asked to use the bathroom, they beat me 
even more. Many times I almost passed out, but they poured cold 
water on my head to wake me up so my beatings could continue.
    A month later, I was put in the solitary confinement, where 
I stayed for over a year. In Burma, solitary confinement means 
no human contact. I was sent to military court and given a 
sentence of 4 years in prison. My trial only took 15 minutes, 
and I had no lawyer. I spent these 4 years of my life behind 
bars.
    Senator Brownback. Excuse me, this was in a prison?
    Mr. Din.  Yes. I was in a prison for 4 years and 3 months. 
If there is a hell on earth, it must be Burma's Insein Prison, 
where I was jailed. For political prisoners such as myself, 
each day centered on interrogations, beatings, and mental 
torture. When the guards noticed I had written a calendar on my 
wall with a small piece of brick, I was thrown into pitch-black 
solitary confinement. When I forgot to stand at attention, I 
was forced to crawl on sharp, pointed stones for 100 yards 
while the prison guards beat me with sticks and belts.
    Many of my fellow prisoners were tortured even more. They 
were tortured for dropping a cup of water. They were tortured 
for teaching English. They were tortured for anything. Often, 
when I tried to sleep, I could hear the screams of those being 
tortured. Those screams haunt me to this day. They are the 
voices of my friends, many of whom were killed by the violence 
inflicted upon their bodies. It is for them that I have 
dedicated my life to freeing my country from the evil darkness 
that is the ruling military junta.
    I would like to tell you about the other brave people of 
Burma. There are over 1,600 men and women political prisoners 
in Burma, and many have been behind bars for over 10 years. We 
talk so many times about numbers that it can be easy to forget 
their names and their stories. My friend, Min Ko Naing, has 
been in prison since 1989.
    For the Burmese people, Aung San Suu Kyi is like George 
Washington. Min Ko Naing is like Sam Adams. He is a true hero. 
We were both arrested at the same time. He was also severely 
tortured. Unlike me, however, he has been held in solitary 
confinement for 14 years in an 8-by-10 foot cell, never leaving 
for more than 15 minutes per day.
    The regime has offered to release Min Ko Naing if he would 
sign a document forswearing any political activity and 
condemning the democracy movement. He has refused. In the face 
of such brutal tyranny, he continues to fight back against the 
regime. His courage should inspire us.
    Now, I would like to discuss the many different ways people 
are resisting the military regime in Burma. One way that we are 
working to bring change to Burma is through information. The 
National Endowment for Democracy gives money to organizations 
along the Thailand-Burma border that help to get information 
inside the country, including this newspaper, The New Era 
Journal. Every month, we distribute thousands of copies inside 
Burma throughout our courier network. Keep in mind that 
possession of this newspaper is an automatic 7-year jail 
sentence.
    We are also very grateful for services from the Voice of 
America and Radio Free Asia. Even though many people have been 
sentenced to long prison terms for listening to the radio, the 
people of Burma listen to these radio programs almost every 
night in order to find out what's going on in the world and in 
our own country.
    My people also continue to organize protests around the 
country. Last August, two of my colleagues were arrested for 
organizing a protest in downtown Rangoon. In September, 30 more 
people were arrested for protesting. In November, a man was 
arrested for making an NLD symbol, and in January, two Buddhist 
nuns were arrested for organizing a demonstration. In February, 
one dozen people were arrested for planning a demonstration, 
and in May another man was arrested.
    I know that it does not make it in the news very often, but 
not a month goes by that the people of Burma are not trying to 
organize a nationwide uprising. There are also many actions 
taking place in a coordinated manner that are directed at 
fostering support for the democracy movement within Burma's 
armed forces. The effort is aimed at convincing military 
leaders and soldiers that the future of the country lies with 
the democracy movement, and not with the regime.
    Other actions by underground groups inside the country 
allow freedom activists to travel and conduct organizational 
work with key groups such as monks and rice farmers. Aung San 
Suu Kyi's speeches are copied and distributed by the thousands 
on audio tape in Burma. The Burmese people are also defying the 
military regime by attending speeches of Aung San Suu Kyi. 
These are really more than just speeches, they are democracy 
rallies.
    In December, 20,000 people came to see her speak in Arakan 
state. In March, 30,000 people came to watch her speak in Chin 
state, and on this latest trip tens of thousands of Burmese 
people risked their lives and their livelihoods to participate. 
Even when the regime has threatened them with weapons and guns, 
they refuse to turn back.
    I would like to close my testimony by making a few 
recommendations. First and foremost, we need regime change in 
Burma. The United Nations has attempted to foster a dialogue 
that can lead to a political transition, and events have shown 
this to be a failure. Sanctions will serve to cut the regime's 
access to hard currency that it uses to finance its instruments 
of terror.
    In order to accomplish regime change, we must do three 
things in addition to increasing sanctions. Firstly, we need to 
increase resources to fund the struggle inside Burma. Sanctions 
will help us very much, but they should be seen as a first 
step. The people of Burma need to be given the tools to effect 
change, including money, communications equipment, food, and 
humanitarian support to refugees internally displaced, and in 
Thailand and India.
    Second, the United States needs to pressure ASEAN, Japan 
and India to end their political support for the military 
regime. China will enjoy tremendous economic benefits from a 
free market, politically stable Burma, and this will be in 
their strategic national interest. Clearly a democratic Burma 
will be better for the entire region.
    Third, the United Nations Security Council must act now on 
Burma. So far, the United Nations has been worthless in helping 
my country. The Burmese regime has played the United Nations 
like a dancing marionette.
    A Security Council resolution should seek to duplicate the 
actions contained in the Burma Freedom and Democracy Act. We 
know that freedom is not free. Its cost is measured in the 
bodies of dead democracy activists, broken families, and years 
stolen from the lives of political prisoners. We are willing to 
pay the price, and we do so every day. We want people around 
the world to know this. We are freedom fighters, not victims.
    Mr. Chairman, this regime will not last. I look forward to 
the day when I am able to join my family and friends in Burma, 
about telling them that during our darkest hour, when our fight 
was far from certain, when despair had almost overcome hope, 
that it was the people of the United States and their 
representatives sitting in this Congress that lifted the torch 
of democracy and lit our path to freedom.
    Thank you.

    [The prepared statement of Mr. U Aung Din follows:]

                     Prepared Statement of Aung Din

    Mr. Chairman,
    Thank you for giving me the opportunity to speak on behalf of 50 
million Burmese who are locked in a battle with an illegitimate 
military regime to bring peace, democracy and human rights to our 
country. My name is Aung Din, and as you mentioned I serve as the 
director of policy for the Free Burma Coalition, an organization based 
in the United States with national and international chapters.
    I'd like to thank you Senator Brownback and Senators McConnell and 
Feinstein, and the members of the United States Senate for the 
overwhelming bipartisan vote to approve the Burma Freedom and Democracy 
Act last week. By supporting this legislation, you sent a clear message 
to the people of Burma that you support our struggle for freedom. I 
urge the House to act on this legislation soon.
    Since you have already heard much about the events surrounding May 
30th, 2003, I want to tell you about myself and discuss the many 
different ways that the people of Burma are working to get rid of our 
country's dictatorship. I know that Aung San Suu Kyi is the most 
recognized person from Burma, but it is important for the Committee to 
know that there are thousands of others in Burma who are committed to 
nonviolence and working for the removal of the regime and the 
institution of a democratic Burma.
    In 1988, I was a student at the Rangoon Institute of Technology 
when I and many of my fellow students helped to organize a nationwide 
demonstration that almost overthrew the military government. We marched 
proudly in front of the American Embassy and waved our banners, because 
we knew that Americans believe in freedom and democracy. We avoided the 
Soviet embassy for the same reason.
    Tragically, as millions of people marched on the streets, the 
military regime opened fire on me and my fellow students. Up to 10,000 
people were murdered in a matter of weeks, including students, women 
and infant children. Those who survived were jailed and suffered daily 
torture sessions.
    Mr. Chairman, this was one year before the fall of the Berlin Wall.
    Unfortunately, because the military refused to let any 
international news media inside the country, no one knew what happened 
to us. After seeing my colleagues gunned down on the streets, I was 
very scared; but I knew I couldn't give up. I continued to organize 
demonstrations and protests, and eventually, I was captured by the 
regime.
    When they arrested me, they handcuffed me, threw a hood over my 
head, and pulled me off the bus I was riding. I was taken to a military 
interrogation center, where I was held with no food, no drink, no 
toilet, and no sleep for one week. My hood was never removed. 
Successive shifts of interrogation officers beat, kicked, and hit me. 
When I asked for water, they laughed at me. When I asked to use the 
bathroom, they beat me even more. Many times I almost passed out, but 
they poured cold water onto my head to wake me up so my beatings could 
continue.
    A month later, I was put in solitary confinement, where I stayed 
for over a year. In Burma, solitary confinement means no human contact. 
I was sent to military court and given a sentence of four years in 
prison. My trial took only fifteen minutes, and I had no lawyer. I 
spent the next four years of my life behind bars.
    If there is a hell on earth, it must be Burma's Insein prison where 
I was jailed. For political prisoners such as myself, each day centered 
on interrogations, beatings, and mental torture. When the guards 
noticed I had written a calendar on my wall, I was thrown in pitch-
black solitary confinement. When I forgot to stand at attention, I was 
forced to crawl on sharp, pointed stones for 100 yards while the prison 
guards beat me with sticks and belts. Many of my fellow prisoners were 
tortured even more. They were tortured for dropping a cup of water. 
They were tortured for teaching English; they were tortured for 
anything. Often, when I tried to sleep, I could hear the screams of 
those being tortured. Those screams haunt me to this day. They are the 
voices of my friends, many of whom were killed by the violence 
inflicted upon their bodies. It is for them that I have dedicated my 
life to freeing my country from the evil darkness that is the ruling 
military junta.
    Our families did not escape either. My brother was also arrested 
for his participation in the freedom struggle. Many parents and 
families were forced out of their jobs by the regime. The regime, 
through the military intelligence (MI) apparatus, conducts a scorched 
earth campaign against anyone associated with the democracy movement.
                       other political prisoners
    I want to tell you about the other brave people of Burma. There are 
over 1,600 men and women political prisoners in Burma and many have 
been behind bars for over a decade. We talk so many times about numbers 
that it can be easy to forget their names and their stories.
    My friend Min Ko Naing has been in prison since 1989. For the 
Burmese people, Aung San Suu Kyi is like George Washington. Min Ko 
Naing is like Sam Adams--he is a true hero.
    Just as much as Aung San Suu Kyi, he was the main leader of our 
revolution. He spoke at rallies across the country and called on the 
people to believe in freedom. I think that he understood freedom and 
democracy at its roots, far before many of the rest of us.
    We were both arrested at the same time. He was also severely 
tortured. Unlike me, however, he has been held in solitary confinement 
for 14 years. It might be that the military regime will never release 
him.
    In 1994, U.S. Congressman Bill Richardson met Min Ko Naing in 
prison. He told the Congressman to continue the struggle for freedom 
and democracy. The military punished Min Ko Naing by transferring him 
500 miles away from his family. Now, his family can only visit him once 
a year. He has never been permitted to leave his 8 x 10 foot cell for 
more than 15 minutes per day.
    The regime has offered to release Min Ko Naing if he will sign a 
document forswearing any political activity and condemning the 
democracy movement. He has refused. In the face of such brutal tyranny, 
he continues to fight back against the regime. His courage should 
inspire us.
    I would now like to discuss the many different ways people are 
resisting the military regime in Burma. Aung San Suu Kyi is one person 
in a democracy movement that is broad and deep. There are hundreds of 
activists that are jailed and killed each year who never receive any 
attention. Most of my people struggle, suffer, and die without a word 
being raised by the international community.
                              information
    One way that we are working to bring change to Burma is through 
information. The National Endowment for Democracy gives money to 
organizations along the Thailand-Burma border that help to get 
information inside the country, including this newspaper, The New Era 
Journal. Every month, we distribute thousands of copies inside Burma 
through a courier network. Keep in mind that possession of this 
newspaper is an automatic seven-year jail sentence.
    We are also very grateful for services from the Voice of America 
and Radio Free Asia. Even though many people have been sentenced to 
long prison terms for listening to the radio, the people of Burma 
listen to these radio programs almost every night in order to find out 
what's going on in the world and in our own country.
                    protests and political defiance
    My people also continue to organize protests around the country. 
Last August, two of my colleagues were arrested for organizing a 
protest in downtown Rangoon. In September, 30 more people were arrested 
for protesting. In November, a man was arrested for making an NLD 
symbol, and in January, two Buddhist nuns were arrested for organizing 
a demonstration. In February, one dozen people were arrested for 
planning a demonstration, and in May another man was arrested.
    I know that it doesn't make it in the news very often, but not a 
month goes by that the people of Burma aren't trying to organize a 
nationwide uprising. There are also many actions taking place in a 
coordinated manner that are directed at fostering support for the 
democracy movement within Burma's armed forces. The Burma military is a 
force that is kept together through fear and terror. In the 1990 
elections, voting precincts in major military areas delivered 
overwhelming majorities for the NLD. It is a military that has no 
ideological commitment to the ruling regime. The outreach effort is 
aimed at convincing military leaders that the future of the country 
lies with the democracy movement, and not with the regime.
    Other actions by underground groups inside the country allow 
freedom activists to travel and conduct organization work with key 
groups such as monks and rice farmers. Aung San Suu Kyi's speeches are 
copied and distributed by the thousands on audiotape in Burma. I would 
be happy to talk about these efforts with you in a more private 
setting. I also want to point out that the Open Society Institute, 
Norweigen-Burma Committee, and several other organizations--some 
government sponsored--are assisting our movement.
                    attending pro-democracy speeches
    The Burmese people are also defying the military regime by 
attending speeches of Aung San Suu Kyi. These are really more than just 
speeches--they are democracy rallies.
    In December 20,000 people came to see her speak in Arakan state. In 
March 30,000 people came to watch her speak in Chin State. And on this 
latest trip, tens of thousands of Burmese people risked their lives and 
their livelihoods to participate. Even when the regime has threated 
them with weapons and guns, they refused to turn back.
                            recommendations
    I would like to close my testimony by making a few recommendations 
for future policy on Burma. First and foremost, we must make it clear 
that, as Senator McConnell has said, we need regime change in Burma. 
The United Nations has attempted to foster a dialogue that can lead to 
a political transition, and events have shown this to be a failure. 
Sanctions will serve to cut the regime's access to hard currency that 
it uses to finance its instruments of repression. We must now work on 
empowering activists inside the country to allow them to bring maximum 
internal pressure against the regime. Either way, they must be removed. 
The United States is in a unique position to help bring about change in 
the world because Americans believe in freedom and democracy.
    In order to accomplish regime change, we must do three things:

(1) Increase Resources to the Struggle Inside Burma
    We need increased resources to fund the struggle inside Burma. 
Sanctions will help us very much, but they should be seen as a first 
step. The people of Burma need to be given the tools to effect change, 
including money, communications equipment, food and humanitarian 
support to refugees internally displaced and in Thailand and India.
(2) Pressure Other Countries to Stop Supporting Burma's Regime With 
        Military Sales and Business Investment
    The United States needs to pressure ASEAN, Japan, and India to end 
their political support for the military regime. China will enjoy 
economic benefits from a free-market, politically stable Burma. 
Clearly, a democratic Burma will be better for the entire region.
(3) Push the United Nations Security Council to Act on Burma
    The United Nations Security Council must act now on Burma. So far, 
the United Nations has been worthless in helping my country. The 
Burmese regime has played the United Nations like a dancing marionette. 
A Security Council resolution should seek to duplicate the actions 
contained in the Burma Freedom and Democracy Act.
    If the Security Council refuses to act, the United States must help 
the Burmese people overthrow the illegitimate junta through the use of 
a nonviolent, mass mobilization campaign. I want to stress that we are 
not asking for military intervention, but we are asking for political 
and moral support directed to activists inside the country.
    The regime has been given 2\1/2\ years to bring change to Burma. 
Now, it is time to change the regime. We must bring unremitting 
pressure against these thugs. The same economic and political 
conditions that led to the 1988 uprising are still present in Burma. 
The regime is hated by the people and, if enough political space can 
open, I can envision another people power mobilization that can sweep 
this regime from Rangoon and condemn it to the ash heap of history.
    We know that freedom isn't free. It's cost is measured in the 
bodies of dead democracy activists, broken families and years stolen 
from the lives of political prisoners. We are willing to pay the price 
and we do so every day. We want people around the world to know that we 
are freedom fighters, not victims.
    Mr. Chairman, this regime will not last. I look forward to the day 
when I am able to rejoin my family and friends in Burma about telling 
them that during our darkest hour, when our fight was far from certain, 
when despair had almost overcome hope, that it was the people of the 
U.S. and their representatives sitting in this Congress that lifted the 
torch of democracy and lit our path to freedom.
    Thank You.

            [Additional Information Submitted by U Aung Din]

           i. men and women who were arrested or disappeared
                     during the may 30, 2003 attack

1. Aung Aung, (M) NLD youth, Mandalay Southwest Township

2. Aung Aung Latt, (F) NLD youth, Mandalay Northeast Township

3. Aung Htoo, (M) NLD, Bohtahtaung Township, Rangoon

4. Aung Khin, (M) NLD, Mandalay Division

5. Aung Ko, (M) NLD, Northwest Township, Mandalay

6. Aung Kyaw Kyaw Oo (aka) Aung Kyaw Myint, (M), NLD youth in-charge, 
        Mandalay (Age 32) (Confirmed in the Khantee prison, Chin State)

7. Aung Kyaw Myint, (M) NLD, Mandalay Southeast Township

8. Aung Kyaw Soe, (M) NLD, Mandalay Northeast Township

9. Aung Naing, (M) NLD youth, Mandalay Northeast Township

10. Chit Yin, (M) NLD, Mandalay Southeast Township

11. Daw Aung San Suu Kyi, (Female) General Secretary, NLD (Age 58) 
        (Confirmed in Yemon Military Camp)

12. Dr. Hla Myint, (M) NLD, Amarapura Township

13. Dr. Hla Soe Nyunt, (M), NLD, Mandalay, Divisional Organizer

14. Dr. Win Aung (M), NLD, Amarapura Township

15. Hla Oo, (M) NLD, Amarapura Township

16. Hla Soe Win, (M) NLD youth, Mandalay Southwest Township

17. Hla Than, (M) Mandalay Northwest Township

18. Hsann Lwin, (M) NLD youth, Mandalay Northeast Township

19. Htut Soe, (M) NLD youth, Rangoon Division

20. Khin Aung Htwe, (M) NLD, Mandalay Northeast Township

21. Khin Aye Myint, (F) NLD, Mandalay Northwest Township

22. Khin Maung Oo, (M) Photographer, Mandalay

23. Khin Ma Ma Tun, (F) NLD youth, Mandalay Northeast Township

24. Khin Maung Thaung, (M) NLD, Mandalay Southwest Township

25. Khin Mya Win, (F) NLD, Mandalay Southwest Township

26. Khin Oo, (M) NLD youth, Sagaing Division

27. Ko Lay, (M) NLD, Mandalay Northeast Township

28. Kyaw Aun, (M) NLD, Mandalay Northwest Township

29. Kyaw Htike, (M) NLD youth, Mandalay Northeast Township

30. Kyaw Kyaw, (M) Mandalay Northwest Township

31. Kyaw Myo Thu, (M) NLD youth, Mandalay Southwest Township

32. Kyaw Myo Oo, (M) NLD youth, Mandalay Northeast Township

33. Kyaw Soe, (M) Mandalay Northwest Township

34. Kyaw Soe Lin, (M) NLD youth, Mandalay (Age 25)

35. Kyaw Than, (M) NLD youth, Mandalay Northeast Township

36. Kyaw Tin Win, (M) NLD youth, Rangoon Division

37. Kyaw Zwar Win, (M) Mandalay Northwest Township

38. Kyi Kyi Myint, (F) NLD, Mandalay Southwest Township

39. Lin Htut Soe, (M) NLD youth, Mandalay Northeast Township

40. Myo Zaw Aung, (M) NLD youth, Kawlin Township

41. Minn Lwin, (M) NLD youth in-charge, Mandalay Division, (Age 34)

42. Min Lwin, (M) NLD youth, Rangoon, (Confirmed in the Khantee prison, 
        Chin State)

43. Min Thein, (M) NLD youth, Mandalay Southwest Township

44. Min Zaw Oo, (M) Student, Government Technical College, Monywa--
        (Confirmed dead)

45. Moe Thaw (aka) Pho Thaw, (M) NLD youth, Rangoon (Age 32) (Confirmed 
        in the Khantee prison, Chin State)

46. Myint Kyaw, (M) NLD youth in-charge, Rangoon (Age 37) (Confirmed in 
        the Khantee prison, Chin State)

47. Myint Ngwe, (M) NLD youth, Yenanchaung Township, Magway Division 
        (Age 38)

48. Myint Oo, (M) NLD, Mandalay South East Township

49. Myint Wai, (M) NLD youth, Yenanchaung Township, Magway Division

50. Myint Myint Kyi, (F), NLD, Mandalay Division

51. Myo Min (M) NLD youth, Mandalay Northeast Township (Age 31)

52. Myo Naing, (M) NLD, Mandalay Division Organizer

53. Myo Nyunt, (M) NLD, secretary, Ahlone Township, Rangoon Division, 
        (age 37)

54. Myo Tint, (M) NLD youth, Mandalay Southwest Township

55. Myo Zaw Aung, (M) NLD, Mandalay Northeast Township, (Confirmed in 
        the Khantee prison, Chin State)

56. Nay Myo Lin, (M) Mandalay Northwest Township

57. Naing Naing, (M) Democratic Party for a New Society

58. Nyunt Nyunt, (F), NLD, Mandalay Northwest Township

59. Soe Soe, (M) NLD youth, Htuntone Myothit Township

60. Soe Win, (M) Driver

61. Thander Soe, (F) Mandalay Northwest Township

62. Than Tun, (M) NLD, Kamaryut Township, Rangoon Division

63. Than Htay, (M) NLD, Mandalay Southeast Township

64. Than Htun, (M) NLD, Mandalay Division Organizing Committee, 
        (Confirmed in the Khantee prison, Chin State)

65. Than Tun Oo, (M) Mandalay Northwest Township

66. Than Win, (M) NLD, Mandalay Northeast Township

67. Thein Aung Lay, (M) Mandalay Northwest Township

68. Thein Soe, (M) Photographer, Sagaing

69. Thein Toe Aye, (M) NLD youth, Mandalay Southwest Township

70. Thein Tun, (M) NLD youth, Yankin Township, Rangoon

71. Thein Zan, (M)

72. Thet Zaw (aka) Thet Tun, (M) NLD youth in-charge, Rangoon, (Age 30) 
        (Confirmed in the Khantee prison, Chin State)

73. Thura (aka) Thi Ha, (M) NLD youth, Mandalay, (Age 29) (Confirmed in 
        the Khantee prison, Chin State)

74. Tin Lin, (M) Mandalay Northwest Township

75. Tin Maung Oo, (M) NLD, Mandalay Southwest Township

76. Toe, (F) NLD, Mandalay Southwest Township

77. Toe Lwin, (M) NLD youth, Bahan Township, Rangoon Division (Age 32) 
        (Confirmed dead)

78. Tin Tin Myint, (F), NLD, Mandalay Division

79. Tun Tun, (M) Mandalay Northwest Township

80. Tun Win, (M) NLD, Mandalay Southwest Township

81. Tin Tun Oo, (M) NLD, Mandalay Division

82. Tun Tun Win, (M) NLD, Mandalay Northeast Township

83. Tin Maung Aye, (M) Mandalay Northwest Township

84. Tun Myint, (M) NLD, secretary, Bahan Township, Rangoon Division, 
        (Age 36) (Confirmed in the Khantee prison, Chin State)

85. Tun Myaing, (M) Joint-secretary, Sagaing Division

86. Tun Naing Oo, (M) Mon Ywar Township

87. Tun Zaw Zaw, (M) NLD youth in-charge, Rangoon (Age 38) (Confirmed 
        in the Khantee prison, Chin State)

88. U Aung Soe, (M) NLD, Organizer of Mandalay Division

89. U Chit Tin, (Male), Secretary, NLD, Mandalay Division

90. U Hla Mi (M) NLD, MP Elect, Kawthaung Township

91. U Htwe, (M) NLD, Mandalay Southeast Township

92. U Myint Kyi, (M) MP Elect, NLD, Kathar Township

93. U Paw Khin, (M) MP Elect, Myingyan Township

94. U Par Pa, (M) Vice-chairman, Sagaing Division

95. U Piimya Thin, (M) Buddhist Monk, Okkan Tawya Monastery, Monywar--
        (Confirmed dead)

96. U Saw Hlaing, (M) MP elect, NLD, Inn Daw Township

97. U Tin Aung Aung, (M) MP elect, NLD, Mandalay Northwest Township, 
        (Age 59) (Presumed dead)

98. U Tin Oo, (Male) Vice-Chairman, NLD (Age 75) (Confirmed in the 
        Kalay prison, Sagaing Division)

99. U Tin Tun Oo, (M) NLD, MP elect, Lewe Township, Mandalay Division, 
        (Age 40)

100. U Thwae, (M) Mandalay Northwest Township

101. Wanna, (F) NLD, Mandalay Southwest Township

102. Wanna Maung, (M) NLD youth, Htuntone Myothit Township

103. Win Aung, (M) NLD, Divisional Organizer, Sagaing Division

104. Win Khaine, (M) Mandalay Northwest Township

105. Win Ko, (M) NLD, Mandalay Northeast Township

106. Win Mya Mya, (F) NLD, Mandalay Divisional Organizer (Confirmed in 
        the Northwestern Military Command headquarters, Monywar)

107. Win Myint Oo, (M) NLD, Mandalay Southeast Township

108. Win Phyu Ei, (F) NLD youth, Mandalay Northeast Township

109. Win Thiha Aung, (M) Student, Monywar Institute of Economy 
        (Presumed dead)

110. Yan Naung Soe, (F) NLD youth, Mandalay Northeast Township

111. Yee Yee Lin, (F) NLD youth, Mandalay Northeast Township

112. Ye Min Zaw, (M) NLD youth, Mandalay Southwest Township

113. Ye Myint Aung, (M) NLD, Mandalay Northeast Township

114. Zaw Lay, (M) NLD, son of Hla Myint, Amarapura Township

115. Zaw Win Tun, (M) NLD youth, Mandalay Southwest Township, (Age 27) 
        (Confirmed in the Khantee prison, Chin State)

116. Zaw Zaw Aung, (M) NLD youth, Mandalay Southwest Township

117. Zayar Tun, (M) NLD youth, Mandalay Southwest Township

118-124. 7 Buddhist Monks, From Yankin Monastery, MonYwar

125-138. 14 drivers, (M) names not known yet

139-144. 6 Divisional Executive members, Sagaing Division, names not 
        known yet

145-158. 14 NLD youth members from Sagaing Division, names not known 
        yet
           ii. men and women who were arrested or disappeared
                     after the may 30, 2003 attack

1. U Aung Shwe, (M) Chairman, NLD, MP elect, Mayangone Township (House 
        arrest--May 31, 2003) (Age 85)

2. U Lwin, Secretary, (M) NLD, MP elect, Thongwa Township (House 
        arrest--May 31, 2003) (Age 79)

3. U Than Tun, (M) CEC, NLD, MP elect, Taungtha Township, Secretary, 
        CRPP (House arrest--May 31, 2003) (Age 82)

4. U Nyunt Wai, (M) CEC, NLD, MP elect, Taungoo Township (House 
        arrest--May 31, 2003) (Age 77)

5. U Lun Tin, (M) CEC, NLD, MP elect, Mawlamyine Township (House 
        arrest--May 31, 2003) (Age 82)

6. U Hla Pe, (M), CEC, NLD, MP elect, Mawlamyine Gyun Township (House 
        arrest--May 31, 2003) (Age 76)

7. Thakin Soe Myint, (M) CEC, NLD, MP elect, South Okkalapa Township 
        (House arrest--May 31, 2003) (Age 79)

8. U Kyi Maung (M), Former Chairman of the NLD, MP elect, Mayangon 
        Township (House arrest--May 31, 2003) (Age 80)

9. U San Linn, (M) Chairman, NLD Mogot Township (June 3, 2003)

10. U Kyaw Htin, (M) Vice-chairman, NLD Mogot Township (June 3, 2003)

11. U Ko, (M) Vice-chairman, NLD, Mogot Township (June 3, 2003)

12. Ko Myo, (M) NLD, Yankin Township (June 4, 2003)

13. Thein Oo, (M) Officer in-charge, NLD headquarters, Rangoon (June 4, 
        2003)

14. Soe Win, (M) Officer in-charge, NLD headquarters, Rangoon (June 4, 
        2003)

15. U Andastiya, Buddhist monk, Kayah State (June 4, 2003)

16. U Soe Win, (M) MP elect from Bago Township, National Party for 
        Democracy, member of CRPP (June 5, 2003)

17. U Ne Win, (M) Vice-chair, NLD, Kachin State (June 5, 2003)

18. U Naing Zaw Win, (M) Joint secretary, NLD, Kachin State (June 5, 
        2003)

19. U Maran Po Thar, (M) NLD, Kachin State (June 5, 2003)

20. U Hla Maung, (M) MP elect, Kyar Inn Seikkyi Township, CRPP member 
        (June 5, 2003)

21. U Aye Win, (M) NLD, Bassein Township (June 6, 2003)

22-26. Another 5 persons from Bassein Township, were arrested together 
        with U Aye Win on June 6, 2003.

27. U Thein Oo, (M) MP elect, Oak Twin Township, Bago Division, member 
        of the National Party for Democracy, a new member of the CRPP 
        (June 6, 2003)

28. U Saw Tun, (M) NLD Organizer, Monywar Township (May 30) (Sentenced 
        two years imprisonment from a summary court)

29. U Myint Hlaing (M), Father of political prisoner San San Maw (F) 
        (June 10, 2003)

30. Tin Hla (M), Husband of a political prisoner San San Maw (F) (June 
        10, 2003)

31. Maung Maung Lay, (M) NLD, Kyimyingdaing Township (June 10, 2003)

    Senator Brownback. Thank you very much; thank you for your 
courageous struggle; thank you for continuing in that until the 
people of Burma are free. We will be standing with you.
    We have a vote on now. I will go over and vote and be back 
shortly. We will take a brief recess, probably about a 10-
minutes; and then we will reconvene. Thank you.
    [Recess.]
    Senator Brownback. I call the hearing back to order. I'm 
sorry, that took much longer than I thought it would. I was 
caught on the floor, then I had to take a call as well; so, my 
apologies for doing that.
    Mr. Joseph, it's good to have you here. Just to reintroduce 
you quickly, you are a program officer for Asia, National 
Endowment for Democracy. We're delighted to have you here, and 
please, the microphone is yours.

  STATEMENT OF BRIAN JOSEPH, PROGRAM OFFICER, ASIA, NATIONAL 
                    ENDOWMENT FOR DEMOCRACY

    Mr. Joseph.  Thank you very much. I want to thank the 
committee and Senator Brownback for inviting me to testify 
today on this important and timely issue. I'm a program officer 
for Asia at the National Endowment for Democracy (NED). I've 
managed the NED's Burma project since 1996.
    The NED has been deeply involved in supporting democracy 
and human rights in Burma since 1990, when we made our first 
Burma grant. Today, thanks in large part to the strong interest 
that Congress has taken in Burma, the NED now awards over $2.4 
million per year in grants to 35 different Burmese groups 
dedicated to bringing democracy to their country. This support 
has been instrumental in sustaining and empowering the 
democratic opposition in Burma, and increasing pressure on the 
military regime.
    Attached to my written testimony is a list of the 
Endowment's fiscal year 2002 Burma grants. Please note that 
because the Burmese junta has targeted the NED in the past for 
its support of the pro-democracy movement in Burma, the NED no 
longer publishes the names of recipient organizations.
    The situation inside Burma today is arguably more explosive 
than at any time since the 1988-1990 period when the State Law 
and Order Restoration Council, or SLORC, unleashed a violent 
crackdown that left thousands dead, in prison, or in exile. 
When military-backed thugs attacked pro-democracy leader Aung 
San Suu Kyi and her convoy on a dark road outside of Monywa on 
May 30 of this year, all hope for a quick and peaceful 
negotiated settlement to Burma's longstanding political crisis 
evaporated.
    With Suu Kyi once again in detention, NLD offices 
shuttered, and scores of pro-democracy activists dead or 
missing, the regime looks to be firmly in control. But for as 
long as Suu Kyi and her supporters continue to fight for 
democracy, the regime's grasp will be conditional on its 
willingness to use brute force to stay in power. The junta is 
not a partner for peace and national reconciliation in Burma. 
It is an obstacle that must be overcome.
    In short, the May 30 attack on the NLD and Aung San Suu Kyi 
demonstrated three things: one, Senior General Than Shwe and 
the army hardliners are calling the shots; two, the regime is 
willing to do whatever it deems necessary to hold onto power; 
and three, despite its rhetoric to the contrary, the SPDC, or 
the State Peace and Development Council, the successor military 
junta to the SLORC, understands full well that if given the 
opportunity the people of Burma would once again come out en 
masse in support of Aung San Suu Kyi and the NLD.
    In a country where the balance of power is so uneven, and 
where the military regime maintains absolute control over all 
facets of life, it is essential that efforts to promote a 
transition to democracy address this imbalance directly.
    Sanctions alone are not enough to effect change in Burma, 
but as part of a larger strategy to promote democracy they are 
an essential ingredient. Coupled with continuing support for 
the democracy movement and humanitarian support for the 
hundreds of thousands of displaced Burmese, the United States 
is a leader in supporting the struggle for democracy in Burma.
    During the year between Aung San Suu Kyi's release from 
house arrest in May 2002 and the attack on her and her convoy 
in May 2003, there was a marginal expansion of political space 
in Burma. Small as this opening was, it presented democracy 
activists with new opportunities. For example, the NLD was able 
to reopen nearly 100 district- and township-level offices, and 
visit six of the seven ethnic states, drawing large and 
energetic crowds wherever it went.
    The regime has now shut those offices and closed those 
channels. Citizens again have no way to contribute openly to 
the political life of their country. However, pro-democracy 
activist groups based within Burma and abroad have well-
established underground channels of communication that allow 
for effective work inside Burma even under extremely trying 
circumstances.
    I now want to provide you with a glimpse of the type of 
work being done by the pro-democracy movement with support from 
the NED. One of the priority areas of concentration for the NED 
is support for independent news and information.
    In Burma, radio, print media, and television are state-
controlled. Internet access is limited to all but a handful of 
SPDC generals and their cronies. Listeners or readers of banned 
material, as U Aung Din mentioned, are subjected routinely to 
intimidation and sometimes harsh prison terms.
    Pro-democracy organizations based in Thailand, India and 
further abroad work to counteract the SPDC-controlled media and 
propaganda through radio, print media, and human rights 
reports. As the only Burmese-run independent media outlets in 
the world, these organizations also serve as a training ground 
for Burmese journalists who will be called upon to establish a 
free press in Burma after the transition to democracy.
    Radio continues to be the most efficient and effective 
means of reaching sizeable audiences in Burma. The BBC, Radio 
Free Asia, the Voice of America, and the Democratic Voice of 
Burma, a Burmese-run short-wave radio station, provide the 
people of Burma with independent and accurate Burmese language 
news and information. The NED-funded DVB also broadcasts in a 
number of major ethnic languages, reaching important yet 
isolated communities.
    Newspapers and magazines published in Thailand and 
distributed through underground networks inside Burma and along 
its borders reach tens of thousands of readers. Even in the 
face of harsh measures to curb the circulation of these papers, 
demand continues to grow.
    Other groups are working to inform the international 
community of the human rights conditions in Burma and to 
empower people to fight to protect their rights. Recent reports 
by NED grantees have documented the use of rape as a weapon of 
war in the Shan state, religious persecution of Christians in 
the Chin state, forced labor in Mon state, displacement in 
Karen state, and violation of women's rights throughout Burma.
    The second priority area of funding for the NED is 
institution-building. Since General Ne Win seized power in 
1962, Burma has been ruled by military regimes that have 
decimated the country's civil society and destroyed its 
educational system. It is essential to develop and support 
alternative networks and organizations that can operate outside 
military control and begin to reconstruct basic elements of 
civil society. At present, this work must be supported through 
exile-based organizations with well-established links to the 
democracy movement inside Burma.
    In line with Daw Aung San Suu Kyi's repeated calls for 
unity in the ranks of the pro-democracy movement, support 
should be directed at efforts that strengthen cooperation, 
coordination, and unity among the various ethnic, student, and 
pro-democracy groups.
    Because of time limitations, let me now skip very quickly 
to the end of my remarks--you can find my full remarks in my 
written testimony--and say where does this leave us, and what 
do we do about Burma? Although Burma experts often discuss 
splits in the military and divisions between the intelligence 
and army branches of the junta, the military seems fairly 
united. Absent some crushing event, the regime seems unlikely 
to turn on itself, but if the regime is so secure in its 
position, why has it not been able to rid itself once and for 
all of the democracy movement?
    The simple answer is because the democracy movement derives 
its strength from the people of Burma and is led by one of the 
world's most courageous, committed, and principled leaders. The 
democracy movement also draws strength from the international 
community. When international organizations such as the ILO 
take unprecedented steps to address forced labor abuses in 
Burma, or when the United States passes tough sanctions 
legislation, the effect is twofold. It punishes the regime for 
its behavior, and bolsters the democracy movement, which has 
consistently urged governments around the world to avoid doing 
anything that will prop up the regime.
    There is no easy answer to the challenge presented by 
Burma, yet in one significant way the situation is very 
promising, for there is a peaceful and legitimate alternative 
to the regime. That alternative is Aung San Suu Kyi and her 
colleagues in the NLD. They deserve our full and open support.
    The United States should continue to pursue a strategy in 
Burma that combines punitive measures that target the regime 
while simultaneously supporting efforts to build a strong 
democratic alternative.
    I have a number of other recommendations, but because I'm 
out of time I refer you to my written testimony for those. 
Thank you very much.
    [The prepared statement of Mr. Joseph follows:]

                   Prepared Statement of Brian Joseph

                              introduction
    I want to thank the Committee and Senator Brownback for inviting me 
to testify today on this important and timely issue. My name is Brian 
Joseph and I am a program officer for Asia at the National Endowment 
for Democracy. I have managed the NED's Burma project since 1996. The 
NED has been deeply involved in supporting democracy and human rights 
in Burma since 1990 when we made our first Burma grant. Today, thanks 
in large part to the strong interest the Congress has taken in Burma, 
the NED now awards over $2.5 million per year in grants to 35 different 
Burmese groups dedicated to bringing democracy to their country. This 
support has been instrumental in sustaining and empowering the 
democratic opposition in Burma and increasing pressure on the military 
regime. Attached to my written testimony is a list of the Endowment's 
FY 2002 Burma grants. In the past, the Burmese junta has targeted the 
NED for its support of the pro-democracy movement in Burma. To protect 
the security of our Burma grantees, the NED does not publish the names 
of recipient organizations.
                          political situation
    The situation inside Burma today is arguably more explosive than at 
any time since the 1988-1990 period when the State Law and Order 
Restoration Council, or SLORC, unleashed a violent crackdown that left 
thousands dead, in prison or in exile. When military-backed thugs 
attacked pro-democracy leader Aung San Suu Kyi and her convoy on a dark 
road outside of Monywa on May 30 of this year, all hope for a quick and 
peaceful negotiated settlement to Burma's long-standing political 
crisis evaporated.
    In the short term, the regime has stopped democratic development 
dead in its tracks. With Suu Kyi once again in detention, National 
League for Democracy (NLD) offices shuttered, and scores of pro-
democracy activists dead or missing, the regime looks to be firmly in 
control. But as long as Suu Kyi and her supporters continue to fight 
for democracy, the regime's grasp will be conditional on its 
willingness to use brute force to stay in power. The Burmese 
population's rejection of strong-man rule and its support for democracy 
are undiminished.
    In October 2001, when the State Peace and Development Council 
(SPDC), the successor regime to SLORC, announced that it was holding 
talks with the National League for Democracy, the international 
community supported efforts to build trust and understanding between 
the regime and the NLD. For better or worse, the international 
community at that time gave the regime yet another opportunity to 
demonstrate its commitment to national reconciliation. Although there 
have been indications for the past few months that the negotiations 
between the two parties had been stalled for quite some time, Aung San 
Suu Kyi and the NLD continued to operate as if dialogue was still 
possible.
    Since her release from house arrest on May 6, 2002, Aung San Suu 
Kyi and the NLD have worked to rebuild their decimated party and to 
reconnect with the people of Burma. After re-opening their office in 
Rangoon, Suu Kyi and various NLD members began to travel the country. 
In less than a year, Suu Kyi made nine trips outside of Rangoon, 
visiting six of the seven ethnic states and drawing increasingly large 
and energetic crowds as her travels progressed. Although it is 
impossible to know exactly what precipitated the government's decision 
to attack her party on May 30, the positive reception the NLD received 
wherever it went punctured one of the SPDC's most important self-held 
myths. That is, that the military alone could guarantee the territorial 
integrity of a united Burma.
    The regime had to find a way to put Aung San Suu Kyi and the NLD 
back in a box. A democratic opposition with widespread support from all 
corners of the country posed a direct threat to the military government 
and had to be neutralized. The May 30 nighttime attack did more than 
result in the re-arrest of Aung San Suu Kyi and the death of at least 
four, and potentially as many as 70, of her supporters. It also 
reconfirmed that the regime is willing to train its guns, once again, 
on unarmed civilians.
    Prior to the May 30 attack, many Burmese dissidents and observers 
believed that progress, if not imminent, was at least a possibility. 
This perception was fueled in part by Razali Ismail, the UN special 
envoy to Burma. Although it is impossible to know for certain given the 
severe restrictions on speech and information in the country, reports 
indicated that the people of Burma were more or less willing to defer 
to the NLD and Suu Kyi and to trust their judgment that the Razali-
backed dialogue, along with nonviolent protest, might eventually lead 
to a negotiated transition. The hope that the regime was sincere in its 
commitment to dialogue has now been smashed.
    By carefully planning and ruthlessly executing a brazen, thuggish 
attack on the NLD, the regime exposed its true nature to the world. The 
junta is not a partner for peace and national reconciliation in Burma. 
It is an obstacle that must be overcome.
    The regime made the cold calculation that there would be no serious 
repercussions, international or domestic, for its treatment of the 
nonviolent democracy movement led by Aung San Suu Kyi. The United 
States and the European Union have already proven them wrong on the 
first score. The people of Burma will prove them wrong on the second.
    In short, the May 30 attack on the National League for Democracy 
and Daw Aung San Suu Kyi demonstrated three things:

  <bullet> One, Senior General Than Shwe and the army hardliners are 
        calling the shots.

  <bullet> Two, the regime is willing to do whatever it deems necessary 
        to hold on to power.

  <bullet> Three, despite its rhetoric to the contrary, the SPDC 
        understands full well that if given the opportunity the people 
        of Burma would once again come out in mass in support of Aung 
        San Suu Kyi and the NLD.

    In a country where the balance of power is so warped and where the 
military regime maintains absolute control over all facets of life, it 
is essential that efforts to promote a transition to democracy address 
this imbalance directly. As long as the regime continues to believe 
that its actions will be met with little more than perfunctory rhetoric 
from governments around the world, it will not change.
    Sanctions alone are not enough to effect change in Burma, but as 
part of a larger strategy to promote democracy, they are an essential 
ingredient. Coupled with continuing support for the democracy movement 
and humanitarian support for the hundreds of thousands of displaced 
Burmese, the US is a leader in supporting the struggle for democracy in 
Burma.
    The only way the suffering of the Burmese can be relieved is 
through the achievement of a genuine transition to democracy. For forty 
years, military governments in Burma have looted and bankrupted the 
country, systemically hunted down and decimated ethnic minority 
populations, and endorsed the use of rape against citizens as a tool of 
war. Aung San Suu Kyi and the NLD offer a credible and democratic 
alternative. We should support them in their efforts.
                      promoting democracy in burma
    During the year between Aung San Suu Kyi's release from house 
arrest in May 2002 and the attack on her and her convoy in May 2003, 
there was a marginal expansion of political space in Burma. Small as 
this opening was, it presented democracy activists with new 
opportunities. For example, the NLD was able to reopen nearly one 
hundred district- and township-level offices and the regime allowed for 
greater communication between ethnic political leaders and their NLD 
counterparts. The regime has now shut those offices and closed those 
channels. Citizens again now have no way to contribute openly to the 
political life of their country. However, pro-democracy activist 
groups, based within Burma and abroad, have well-established 
underground channels of communications that allow for effective work 
inside Burma even under extremely trying circumstances.
    Burma's borders with Thailand, India, China, and Bangladesh are 
long and porous. The geographic periphery of Burma itself is a ring of 
ethnic nationality states that are ruled by ethno-military 
organizations, the vast majority of which are either openly hostile to 
or at the very least weary of the regime. These conditions make it 
virtually impossible for the junta to shut off all channels of 
communication between activists in exile and the people of Burma.
    As of one the principal organizations supporting democracy in 
Burma, the National Endowment for Democracy has provided timely, 
critical financial assistance to Burmese democrats since 1990. The 
Endowment's Burma project has grown each year and now provides more 
than $2.5 million to roughly 35 groups working to advance the goals of 
Burma's elected representatives; to strengthen unity and self-reliance 
among Burma's pro-democracy and ethnic groups; and to provide 
independent news and information.
Independent News and Information
    Objective, accurate, and timely information is essential to combat 
the military junta's relentless disinformation campaign to discredit 
the pro-democracy movement, to sow distrust among the ethnic and pro-
democracy groups, and to cover up its abysmal human rights record. The 
only newspapers legally available in Burma are the military junta-
controlled official newspapers--Kyay Mon (The Mirror) and Nay Pyidaw 
(The Guardian) in Burmese, and MyanmarAhlin (The New Light of Myanmar) 
in English and Burmese--and the relatively new government-sanctioned 
Myanmar Times, published by an Australian national and reportedly close 
to Lt. General Khin Nyunt. All radio and television is state-
controlled. Magazines, including business and economics magazines, are 
highly censored. Internet access is limited to all but a handful of 
SPDC generals and their cronies. Listeners or readers of banned 
material are subjected routinely to intimidation and sometimes harsh 
prison terms. Ethnic groups face particularly severe restrictions in 
the use of their own languages in public life.
    Pro-democracy organizations based in Thailand, India and further 
abroad work to counteract the SPDC-controlled media and propaganda 
through radio, print media, and human rights reports. As the only 
Burmese-run independent media outlets in the world, these newspapers, 
radio stations and magazines also serve as a training ground for 
Burmese journalists who will be called upon to establish a free press 
in Burma after the transition to democracy.
    Radio continues to be the most efficient and effective means of 
reaching sizeable audiences in Burma. The BBC, Radio Free Asia, Voice 
of America, and the Democratic Voice of Burma (DVB), a Burmese-run 
shortwave radio station, provide the people of Burma with independent 
and accurate Burmese-language news and information. The NED-funded DVB 
also broadcasts in a number of major ethnic languages, reaching 
important yet isolated communities.
    Newspapers and magazines published in Thailand and distributed 
through underground networks inside Burma and along its borders reach 
tens of thousands of readers. The NED supports a number of print 
outlets, including a Burmese-language newspaper and an English-language 
monthly magazine that seek out and print a diversity of opinion and 
commentary about democracy as well as news about Burma. Even in the 
face of harsh measures to curb the circulation of the paper and 
magazine, demand continues to grow.
    Burma is a human rights catastrophe. Recent reports by NED grantees 
have documented the use of rape as a weapon of war in the Shan States, 
religious persecution of Christians in the Chin State, forced labor in 
Mon State, displacement in Karen State, and violation of women's rights 
throughout Burma. These groups work to inform the international 
community of the human rights conditions in Burma and to empower people 
in Burma to fight to protect their rights.
Institution Building Programs
    Since 1962 when General Ne Win seized power, Burma has been ruled 
by military regimes that have decimated the country's civil society and 
destroyed its educational system. It is essential to develop and 
support alternative networks and organizations that can operate outside 
military control and begin to reconstruct basic elements of civil 
society. At present, this work must be supported through exile-based 
organizations with well-established links to the democracy movement 
inside Burma.
    In line with Daw Aung San Suu Kyi's repeated calls for unity in the 
ranks of the pro-democracy movement, support should be directed at 
efforts that strengthen cooperation, coordination, and unity among the 
various ethnic, student, and pro-democracy groups. An expanded base of 
support for Aung San Suu Kyi will make it harder for the military to 
consolidate its control while continuing to ignore her repeated calls 
for national reconciliation and tripartite dialogue between the NLD, 
the military regime, and the ethnic forces.
    Women's groups based in countries that border Burma have carried 
out a variety of training and education programs in recent years to 
increase awareness of democratic values and women's human rights, to 
address public health concerns such as HIV/AIDS awareness and maternal 
and child health practices, and to provide skills training in 
handicrafts and agriculture as a means to increase opportunities for 
income-generation and self-reliance among refugees and internally 
displaced women. In 1999, a coalition of these border-based women's 
groups joined forces to work to increase the participation of women in 
the struggle for democracy and human rights, build mutual understanding 
among all nationalities, actively participate in the national 
reconciliation and development process, and elevate the role of the 
women of Burma both at national and international levels.
    The Endowment believes it is a priority to support the development 
of ethnic organizations so that they are better able to participate as 
equals in the discussions regarding the future political structure of 
Burma. Grants to ethnic nationality-based organizations allow them to 
solidify their core operations, reach more people through increased 
training programs, and distribute their literature to a wider audience. 
Assistance to ethnic groups will also complement the pro-democracy 
movement's efforts to build solidarity between the pro-democracy 
groups, most of whose members are ethnic Burmans, and the ethnic 
nationality forces.
    Assistance should also be directed to border-based student and 
youth groups that work with counterparts inside the country to increase 
awareness of and respect for human rights and democracy through 
education workshops, foreign affairs training programs, and production 
and dissemination of materials. These dedicated students and other 
young peoples, who run great risks to remain in touch with and assist 
networks of democracy supporters throughout Burma, also disseminate the 
pro-democracy material of the larger movement.
    Over the course of the past two years, Burmese pro-democracy 
organizations in exile, working in consultation with democrats inside 
the country, have dedicated greater attention and resources to 
researching and planning for a future democratic Burma. The Endowment 
has supported work in developing federal and state constitutions for a 
democratic Burma, drafting proposed labor laws, and drawing up plans 
for a transition to a market-based economy. Despite such efforts, 
transition planning is still in its infancy. Increased effort should be 
directed at a broad range of initiatives designed to address pressing 
issues that Burma will face following the transition to a democratic 
government. In collaboration with NGOs, think tanks, universities, and 
researchers, Burmese groups can develop policy alternatives with 
implementation plans that address issues such as education; health; the 
rule of law and reform of the judiciary; human rights and transitional 
justice; economics and public finance; agriculture; federal, state and 
municipal roles; energy, the environment, and natural resources; 
reconciliation and ethnic rights; peace building and civil society; and 
humanitarian needs.
    Over the past 15 years, more than 10,000 university and secondary 
school students have left everything behind and fled Burma in order to 
carry on the struggle for democracy and human rights in their homeland. 
Those who remained in Burma, and those too young to have participated 
in the democracy uprising of 1988, have few opportunities: school 
supplies are scarce and out-of-date; teachers are poorly trained and 
paid; schools have been closed for extended periods on a seemingly 
regular basis; and students are seen as a threat to stability, not an 
asset to the country. Those students and pro-democracy activists whose 
educations were cut short when they went into exile have had few 
opportunities for education and training. The more than 100,000 Burmese 
refugees in Thailand have little or no access to secondary education or 
skills-training opportunities.
    The Endowment places a high priority on expanding opportunities for 
Burmese to receive training opportunities, whether as interns or as 
part of structured projects. The Endowment looks to support ethnic 
organizations as they work to improve their ability to resist the 
junta's efforts to destroy ethnic cultural cohesion by harshly 
punishing any use indigenous languages in local schools--a blatant 
violation of international human rights standards protecting indigenous 
cultures and languages. Ethnic leaders are painfully aware that primary 
education, even in Burmese, much less in ethnic languages, is severely 
inadequate in their enclaves. These leaders know that the current 
generation of youth must receive better educations if the leadership is 
to hold out any hope for a more prosperous life.
    Despite the cease-fire agreements between ethnic groups and the 
government in the mid-1990s, people and groups inside Burma are as 
vulnerable as ever to the regime's abuses. Recent estimates put the 
number of internally displaced persons at more than 500,000. It may 
even exceed 1,200,000 out of a total population of about 46 million 
people. Efforts should be made to provide humanitarian relief through 
pro-democracy activist groups to non-combatant opponents of the 
military junta, especially ethnic minorities, women, and students, in 
order to encourage greater unity among those struggling for democracy, 
relieve the hardships suffered by displaced persons and victims of 
political repression, and strengthen self-reliance as a means of 
staving off exploitation.
                               conclusion
    The State Peace and Development Council rules Burma with an iron 
fist. The regime believes that it alone is responsible for maintaining 
unity and securing the peace in Burma. Although Burma experts often 
discuss splits in the military and divisions between the intelligence 
and army branches of the junta, the military seems fairly united. 
Absent some crushing event, the regime seems unlikely to turn on 
itself. But, if the regime is so secure in its position, why has it not 
been able to rid itself once and for all of the democracy movement?
    The simple answer is because the democracy movement derives its 
strength from the people of Burma and is led by one of the world's most 
courageous, committed, and principled leaders. The democracy movement 
also draws strength from the international community. When 
international organizations such as the ILO take unprecedented steps to 
address forced labor abuses in Burma or when the US passes tough 
sanctions legislation, the effect is twofold--it punishes the regime 
for its behavior and bolsters the democracy movement, which has 
consistently urged governments around the world to avoid doing anything 
that will prop up the regime.
    The organizations and projects that the Endowment supports have 
also made a significant contribution to the struggle for democracy and 
human rights in Burma. Through our grants program, we have supported a 
range of Burmese-, English- and ethnic-language independent media 
projects; internal labor- and student-organizing efforts; human rights 
education, advocacy and research; and coalition building among the 
various pro-democracy and ethnic forces. These groups are the lifeline 
to their colleagues inside Burma.
    The regime is unlikely to negotiate in good faith with a partner 
whose principles and popularity makes it inherently a threat to the 
regime, but whom the regime believes lacks actual power. The NLD 
represents a real threat to the regime. The challenge is to continue to 
strengthen the NLD while weakening the regime so that any future 
dialogue will be between equals. Clearly, that is easier said than 
done. There is no easy answer to the challenge presented by Burma. Yet 
in one significant way the situation is very promising, for there is a 
peaceful and legitimate alternative to the regime. That alternative is 
Aung San Suu Kyi and her colleagues in the NLD--to this day the clear 
winner in the last free election to be held in this shackled land. They 
deserve our full and open support.
    The United States should continue to pursue a strategy in Burma 
that combines punitive measures that target the regime while 
simultaneously supporting efforts to build a strong democratic 
alternative. Specifically, the United States Government should:

          (1) Continue to take a leading role in the international 
        community to hold the Burmese generals responsible for their 
        conduct.

          (2) Work with our allies in Asia--Japan and Thailand in 
        particular--to ensure that their Burma policies reflect a 
        strongly pro-democratic agenda.

          (3) Encourage the UN secretary general to become engaged on a 
        sustained and personal basis. Specifically, the U.S. should 
        work with the United Nations to introduce democratic 
        benchmarks, including the right of the NLD to open and staff 
        offices, and to publish a newspaper. These benchmarks must 
        include a specific timeframe for their implementation. The 
        current UN-backed process, which has no enforcement mechanism, 
        has run its course and should be scrapped.

          (4) Work with our ally Thailand to ensure that it provides a 
        safe and secure environment for nonviolent Burmese pro-
        democracy activists working in exile.

    Thank you very much for giving me the opportunity to testify here 
today about this important topic and, more importantly, for your 
ongoing support of the work the NED does to promote democracy in Burma.

 National Endowment for Democracy (NED) Fiscal Year 2002 Burma Grants, 
                    from the NED Annual Report 2002

      (*indicates funding source other than annual congressional 
                             appropriation)
    Because the Burmese junta has targeted the NED in the past for its 
support of the pro-democracy movement in Burma, the NED no longer 
publishes the names of recipent organizations in Burma.
(A) Capacity and Institution Building

$60,000*  To undertake a multifaceted legal research and education 
        program to promote respect for human rights arid the rule of 
        law in Burma.

$16,000  To support a capacity-building and leadership-training program 
        for ethnic-nationality youth from Burma.

$15,000  To support the third meeting of the Chin State Constitution 
        Drafting Working Group and consultation with an international 
        constitutional expert about the draft document.

$80,000*  To distribute human rights and democracy materials inside 
        Burma; to train party activists in effective techniques of 
        nonviolent political action; and to provide humanitarian 
        support for party activists and others along the Thai-Burma 
        border and inside Burma.

$45,000  To be used towards core support and to support its national 
        reconciliation and political solidarity program, which promotes 
        unity among prodemocracy and ethnic forces in Burma; and to 
        conduct basic political education training for grassroots 
        activists from Burma.

International Republican Institute  $200,000  To provide partial core 
        funding and technical and strategic support for prodemocracy 
        political organizations in exile and to increase cooperation 
        with Burmese ethnic nationality groups.

International Republican Institute  $260,000*  To provide specialized 
        training to exiled Burmese political organizations and to 
        provide support to prodemocracy organizations in exile that 
        disseminate information in Burma about democracy and nonviolent 
        political action.
(B) Education and Outreach

$15,000  To distribute material on human rights and democracy, monitor 
        the human rights situation in Burma, and educate monks and 
        Buddhist laypeople about the nonviolent struggle for democracy 
        in Burma.

$68,307*  To research, document, and publicize the treatment and status 
        of political prisoners in Burma and to provide basic 
        humanitarian assistance to political prisoners and their 
        families in Burma.

$380,000*  To support the implementation of the Burmese prodemocracy 
        movement's comprehensive strategic plan aimed at creating a 
        political environment in Burma that is conducive to dialogue 
        between the National League for Democracy and the Burmese 
        military junta.

$40,000*  To conduct a series of leadership workshops for members; to 
        hold capacity-building workshops for women along the Thai-Burma 
        border; to publish a bimonthly Burmese-language newsletter; and 
        to maintain three small reading rooms.

$40,000*  To conduct an intensive training-of-trainers course; to 
        implement human rights education and training courses for 
        grassroots participants, including women and ethnic activists; 
        to publish a Burmese-language human rights manual; and for core 
        support.

$50,000*  To support a Bangkok-based foreign affairs office to conduct 
        diplomatic activities in Southeast and East Asia in order to 
        build international support for the democracy movement in 
        Burma.

$10,000  To educate, train, and empower Burmese women in exile in India 
        to take a more active role in the prodemocracy struggle and to 
        promote women's rights in Burma and among the exile community.

National Democratic Institute for International Affairs  $112,502  To 
        provide technical assistance to Burma's elected democratic 
        leadership for a campaign to build international support for 
        democracy in Burma among parliamentarians, governments, and 
        political-party leaders worldwide.
(C) Humanitarian Assistance

$10,000  To support training courses and workshops and to publish a 
        bimonthly newsletter that highlights the plight of the 
        internally displaced population.

$40,000*  To be used towards core support for an umbrella organization 
        comprised of representatives from major prodemocracy and ethnic 
        organizations, to enable it to coordinate health and education 
        programs for refugee populations in Thailand and India and 
        ethnic populations inside Burma.
(D) Information and Media

$25,000*  To publish and distribute an English-language bimonthly 
        newsletter on the human rights situation in western Burma and 
        to organize a two-week capacity-building training for forty 
        human rights activists.

$160,000*  To support a twice-daily Burmese- and ethnic-language 
        shortwave radio broadcast of independent news and opinion into 
        Burma, and to strengthen the station's ethnic-language 
        programming.

$12,000*  To publish and distribute two monthly human rights 
        newsletters--one in English and one in an ethnic language--for 
        the international community and for audiences in Burma and in 
        exile in Thailand.

$10,000  To conduct women's empowerment and capacity-building workshops 
        for displaced women; to document and report on the situation of 
        women in eastern Burma; and to provide basic social services 
        for displaced women in Thailand and inside Burma.

$40,000*  To produce English-language human rights reports on 
        conditions in southern Burma; to educate Mon inside Mon State 
        about democracy and human rights; and to publish a bimonthly 
        Mon-language newsletter and a monthly Mon-language newspaper 
        for citizens in Mon State and for Mon refugees along the Thai-
        Burma border.

$80,000*  To publish a monthly English-language news magazine providing 
        independent news and information about Burma and events in 
        Southeast Asia, and to maintain a Burmese- and English-language 
        Web site.

$30,000*  To conduct a series of women's rights and empowerment 
        training workshops in Thailand and India for Burmese women of 
        various ethnic groups.

$12,000*  To publish a twenty-eight-page monthly trilingual newsletter 
        that serves as an alternative news source for readers in Burma, 
        in refugee camps along the Thai-Burma border, and in exile in 
        Thailand.

$14O,000*  To publish and distribute inside Burma an independent 
        monthly Burmese-language newspaper focusing on the struggle for 
        human rights and democracy.

$25,000  To write, edit, publish, and distribute a quadri-lingual 
        monthly journal focusing on eastern Burma.

American Center for International Labor Solidarity  $425,033*  To work 
        from its Washington, DC, office to support the program of the 
        independent labor movement in exile to educate workers and 
        other citizens, both exiled and inside Burma, about labor 
        rights and democracy, and to document violations of 
        internationally recognized labor rights.
    Senator Brownback. Thank you very much, Mr. Joseph. I 
appreciate that testimony. We'll go to the next witness.
    I would note to the people watching that the two pictures 
we have on the side are given to us by the Free Burma Coalition 
and the International Republican Institute, and one is of Suu 
Kyi at a rally, and the other is of a young man that was caught 
in the crackdown. I think they show some of the scenes that 
were taking place in Burma.
    Next is Mr. Kevin Burke; he is president and CEO of the 
American Apparel and Footwear Association. Thank you very much 
for joining us today.

 STATEMENT OF KEVIN BURKE, PRESIDENT AND CEO, AMERICAN APPAREL 
                    AND FOOTWEAR ASSOCIATION

    Mr. Burke.  Thank you, Mr. Chairman, for having us here 
today and for the opportunity to testify before this 
subcommittee on what I consider a very, very crucial matter.
    I am the president and chief executive officer of the 
American Apparel and Footwear Association (AAFA), the national 
trade association in the apparel and nonrubber footwear 
industries. Our association represents nearly 700 large and 
small companies who produce and market clothing and shoes in 
the United States and throughout the world. We also represent 
many of the suppliers to our industry.
    First and foremost, the members of AAFA strongly support 
trade sanctions against the ruling military junta in Burma and, 
in particular, applaud the Senate's actions last week in 
approving 97-to-1 the legislation introduced by Senators 
McConnell and Feinstein and joined by 60 of their colleagues. 
This legislation will ban all United States imports from Burma 
until the President of the United States can certify that Burma 
has taken significant and positive steps toward democracy and 
improved human rights for all of its people.
    AAFA hopes that this legislation will be part of a 
multilateral process that will ultimately involve more pressure 
from the United Nations and others in the international 
community.
    Now, you might ask why our association and its members 
would support a ban on United States imports from Burma. Now, 
there are many reasons for this, but I will speak of only two 
today. Our association cares very deeply about labor and human 
rights. These issues are some of the most important factors our 
member companies consider when choosing a company or a factory 
to make their shoes or garments. If a country or factory has 
the ability to make high quality garments or footwear, but we 
are not satisfied with the labor or human rights situation, we 
will avoid these countries and we will avoid these factories.
    At the request of our members, AAFA has embraced labor 
rights, human rights, and social responsibility not only in 
principle, Mr. Chairman, but also in practice. Corporate social 
responsibility represents one of the central tenets of AAFA's 
mission statement and its trade policy.
    Now, AAFA has followed through on this commitment with 
concrete actions, of which our stand on Burma is just one of 
many. For example, AAFA has strongly supported the Worldwide 
Responsible Apparel Production program, otherwise known as 
WRAP. WRAP promotes a code of conduct that ensures that core 
labor concepts, including a minimum age and a prohibition 
against forced labor, are understood and practiced in the shop 
room floor and also by management. WRAP relies upon independent 
third-party monitors to certify that individual overseas 
factories are in compliance with WRAP's code of conduct. Many 
AAFA members subscribe to WRAP and other similar codes of 
conduct that are certified by independent organizations.
    We have also created a forum for our members so our members 
can discuss best practices in corporate social responsibilities 
through our Social Responsibility Committee. I had the honor of 
presenting this past week our Excellence in Social 
Responsibility awards, which I'm holding here today--I brought 
this as an example--to members of our association who in our 
view and an independent view have excelled in this area, 
demonstrating their support of labor and human rights in the 
workforce. We do this every year, and we are certainly hopeful 
that our members will increase their participation in this 
program.
    This brings me to my second point. Our association felt it 
was time to take one step further our commitment to corporate 
social responsibility with respect to Burma. Two years ago, due 
to persistent and egregious violations of ILO conventions on 
forced labor, child labor, and the overall abhorrent labor 
situation in Burma, the ILO took the unprecedented step of 
calling for its member countries to take concrete actions, 
including economic sanctions against the military regime in 
Burma.
    Most countries failed to heed this call. Many of our 
members, however, did heed the call and publicly pledged to 
stop sourcing from Burma. Since the ILO took this position, 
little, if any, progress has been made in Burma. Abuses of 
labor and human rights are still rife throughout the country.
    According to the United States Government's own report on 
this subject, the recently released 2002 Country Report on 
Human Rights Practices in Burma, the Burmese Government has, 
and I quote, continued to restrict workers' rights, ban unions, 
and use forced labor for public works and for the support of 
military garrisons. Other forced labor, including child labor, 
remains a serious problem despite recent ordinances outlawing 
the practices, unquote. In fact, the situation has 
deteriorated, with the economy in ruins and human rights abuses 
rampant, due largely to the inept and corrupt policies and 
practices of Burma's military rulers. Thanks in large part to 
the efforts of AAFA's members and other responsible companies 
in this industry, United States apparel imports have declined 
significantly from Burma in the last couple of years.
    Now, despite this decline, United States total imports from 
Burma still reached $360 million last year, with United States 
imports of Burmese apparel, textiles, and footwear accounting 
for 85 percent of that total. This money helps prop up the 
military regime because, in our understanding, many of the 
apparel and footwear factories are owned by supporters of the 
military junta who have directly benefited from the junta's 
forced labor infrastructure projects and its nonexistent 
enforcement of labor laws. The military junta would not exist 
without the support of these thugs and their cronies.
    Our association and its members realize that the only way 
to implement effective change at the factory level in Burma is 
to effectively change the government at the national level. 
Without effective democratic reform and protection of basic 
human rights at the national level, flagrant labor rights 
violations will continue to run rampant at the factory level.
    AAFA and its members cannot make this change alone. We feel 
that it is time not only for our association but for the United 
States Government to take a stand that it will no longer 
tolerate or support the actions of the military regime in 
Burma. The most effective and the only way to do this is to 
impose an outright ban on all United States imports from Burma.
    As the events of the last few weeks have proven, words 
alone have failed to effect positive change in Burma. Decisive 
actions through the imposition of new sanctions is the only 
route available. This is the right thing for our association, 
this is the right thing for our Government, and for all other 
governments around the world who hold dearly the dignity and 
respect of all human beings. Mr. Chairman, thank you for the 
opportunity to be here this afternoon, and I look forward to 
any questions you might have.
    [The prepared statement of Mr. Burke follows:]

                  Prepared Statement of Kevin M. Burke

    Thank you for the opportunity to testify before the Subcommittee 
today on this important matter. I am the President and Chief Executive 
Officer of the American Apparel & Footwear Association--the national 
trade association of the apparel and non-rubber footwear industries. 
Our association represents nearly 700 large and small companies who 
produce and market clothing and shoes in the United States and 
throughout the world. We also represent many of the suppliers to these 
industries.
    First and foremost, the members of AAFA strongly support trade 
sanctions against the ruling military junta in Burma and, in 
particular, applaud the Senate's action last week in approving 97 to 1 
the legislation introduced by Senators McConnell and Feinstein and 
joined by 60 of their colleagues.
    This legislation will ban all United States imports from Burma 
until the President of the United States can certify that Burma has 
taken significant and positive steps toward democracy and improved 
human rights for its people. AAFA hopes that this legislation will be 
part of a multilateral process that will ultimately involve more 
pressure from the United Nations and others in the international 
community.
    You might ask why our association and its members would support a 
ban on United States imports from Burma. There are many reasons, but I 
will speak of only two.
    Our association cares very deeply about labor and human rights. 
These issues are some of the most important factors our member 
companies consider when choosing a country or factory to make their 
shoes or garments. If a country or factory has the ability to make a 
high quality piece of apparel or footwear, but we are not satisfied 
with the labor or human rights situation, we will avoid those countries 
or factories.
    At the request of our members, AAFA has embraced labor rights, 
human rights, and social responsibility not only in principle, but in 
practice. Corporate social responsibility represents one of the central 
tenets in AAFA's mission statement and its trade policy.
    AAFA has followed through on this commitment with concrete actions, 
of which our stand on Burma is just one of many. For example, AAFA has 
strongly supported the Worldwide Responsible Apparel Production program 
or ``WRAP.'' WRAP promotes a code of conduct that ensures that core 
labor concepts--including a minimum age and a prohibition on forced 
labor--are understood and practiced on the shop room floor and by 
management. WRAP relies upon independent, third-party monitors to 
certify that individual overseas factories are in compliance with 
wrap's code of conduct. Many AAFA members subscribe to wrap and other 
similar codes of conduct that are certified by independent 
organizations.
    We have also created a forum where our members can discuss ``best 
practices'' in corporate social responsibility, through AAFA's Social 
Responsibility Committee. I had the honor of presenting last week our 
``Excellence in Social Responsibility'' awards, which I am holding here 
today, to members of our association who have excelled in this area, 
demonstrating their support of labor and human rights in the workplace.
    This brings me to my second point. Our association felt it was time 
to take one step further our commitment to corporate social 
responsibility with respect to Burma. Two years ago, due to persistent 
and egregious violations of ILO conventions on forced labor, child 
labor and the overall abhorrent labor situation in Burma, the ILO took 
the unprecedented step of calling for its member countries to take 
concrete actions, including economic sanctions, against the military 
regime in Burma. Most countries failed to heed this call. Many of our 
members, however, did heed the call and publicly pledged to stop 
sourcing from Burma.
    Since the ILO took this position, little, if any, progress has been 
made in Burma. Abuses of labor and human rights are still rife 
throughout the country. According to the United States Government's own 
report on the subject, the recently released 2002 Country Report On 
Human Rights Practices on Burma, the Burmese government has, and I 
quote ``. . . continued to restrict worker rights, ban unions, and used 
forced labor for public works and for the support of military 
garrisons. Other forced labor, including child labor, remained a 
serious problem despite recent ordinances outlawing the practice.'' In 
fact, the situation has deteriorated with the economy in ruins and 
human rights abuses rampant due largely to the inept and corrupt 
policies of Burma's military rulers.
    Thanks in large part to the efforts of AAFA's members and other 
responsible companies in this industry, United States apparel imports 
have declined significantly from Burma over the last couple of years. 
Despite this decline, United States total imports from Burma still 
reached $360 million last year with United States imports of Burmese 
apparel, textiles, and footwear accounting for 85 percent of the total. 
This money helps prop up the military regime because, in our 
understanding, many of the apparel and footwear factories are owned by 
supporters of the military junta who have directly benefited from the 
junta's forced labor infrastructure projects and its non-existent 
enforcement of labor laws. The military junta would not exist without 
the support of these cronies.
    Our association and its members realized that the only way to 
implement effective change at the factory level in Burma is to 
effectively change the government at the national level. Without 
effective democratic reform and protection of basic human rights at the 
national level, flagrant labor rights violations will continue to run 
rampant at the factory level.
    AAFA and its members cannot make this change alone. We feel that it 
is time not only for our association, but for the United States 
Government to take a stand that it will no longer tolerate or support 
the actions of the military regime in Burma. The most effective and 
only way to do this is to impose an outright ban on all United States 
imports from Burma. As the events of the last few weeks have proven, 
words alone have failed to effect positive change in Burma. Decisive 
action, through the imposition of new sanctions, is the only route 
available. This is the right thing for our association, for our 
government, and for all other governments around the world who hold 
dearly the dignity and respect of all citizens.
    Thank you.

    Senator Brownback. Thank you, and thank you for the 
testimony. With your association being so opposed to exports or 
imports from Burma to the United States, why are we still 
importing so much from Burma, footwear and clothing?
    Mr. Burke.  These are unfortunately contractors who make 
garments, and hopefully they're not my members, and I believe 
most of my members have pulled out already. These are what I 
would call black marketeers. I would certainly hope that if 
there are any of my members that are over there, they would be 
out right away, but we as an association have made a very, very 
strong stand against the import of these products. It is the 
right thing for us to do.
    Senator Brownback. You're talking about, if I've got your 
numbers right, about $288 million worth of clothing and 
footwear coming into this country from Burma?
    Mr. Burke.  That is correct.
    Senator Brownback. By black marketeers?
    Mr. Burke.  And contractors that have no respect for human 
rights.
    Now, our association, Senator, made a statement that said 
that we will not support any companies or contractors who 
produce in Burma. Now, we can't control what these companies 
do. We can only insist that we take the right stand on this. As 
an association we really have no legal control on what they do. 
We can simply make a statement on behalf of the industry that 
you ought to be out.
    Senator Brownback. I appreciate the push, and I appreciate 
your stance on behalf of your industry. I just did not realize 
the number was quite that high.
    Mr. Burke.  I wish it wasn't that high. I wish it was at 
zero.
    Senator Brownback. I do, too, or that the regime would 
change.
    Mr. Rogers, good to have you here, Kenneth Rogers, 
Associate Dean of International Programs, Director of 
International Services (Emeritus), Indiana University. Welcome.

 STATEMENT OF KENNETH ROGERS, ASSOCIATE DEAN OF INTERNATIONAL 
  PROGRAMS AND DIRECTOR OF INTERNATIONAL SERVICES (EMERITUS), 
                       INDIANA UNIVERSITY

    Mr. Rogers.  Mr. Chairman, it's an honor to have been 
invited to offer an international educator's perspective on the 
current situation in Burma, and to suggest several ways in 
which both the United States and other nations which share a 
common concern about Burma's future might help to ensure that 
some of the country's most important needs in democratic 
institution-building, health and human services, especially 
education, and economic development, might be addressed early 
on and with optimum results.
    Very briefly, in my testimony I propose to focus on the 
roles that exiles, and more particularly Burmese students in 
the United States and elsewhere abroad, might play in helping 
to rehabilitate their beloved homeland. As a preface on student 
involvement in popular political reform movements in Burma, I 
would just mention that college and university students have 
long been at the forefront of popular movements in Burma.
    During the final decades of British rule, Rangoon 
University students came of age, advocating first self-
government, then independence for Burma. The heroic leadership 
of former Rangoon University student leader Aung San--whose 
astute efforts won the promise of independence and of a bright 
future for his country, only to be halted by an assassin's 
bullet in 1947--has been an inspiration to generations of young 
Burmese ever since. Among them his example has galvanized 
opposition and resistance to the brutal repression of military 
regimes that have ruled the country for the last 41 years.
    College and university students are therefore proudly 
regarded by Burmese at-large not only as champions of freedom 
and democracy, but also as a precious resource for restoring 
democracy and the nation's economic health.
    My own personal and professional involvement with Burma and 
with Burmese students dates from 1962, the year in which I 
began a 4-year assignment with the United States Information 
Service as a Foreign Service Officer in Burma. My involvement 
with Burmese students again came to the fore in the early 
1990s, when I was contacted by colleagues in the city of Fort 
Wayne, Indiana, to work with them in assisting newly-arrived 
refugee students from Burma. I will quickly jump to the present 
to say that there are now in the State of Indiana alone more 
than 3,000 refugees from Burma, most of them former students, 
pro-democracy activists. Happily, some have been able to go 
forward with their education, but I will come back to that.
    I am especially pleased, too, that in the same period since 
1993, Indiana University has administered the State Department-
funded Burmese refugee scholarship program for the Bureau of 
Educational and Cultural Affairs. This program has made 
possible the completion of higher education degrees for more 
than 60 scholars and professionals from Burma, and has placed 
them at institutions throughout the United States.
    Ten years of working with Burmese student exiles have led 
me to the conclusion that, individually and as a group, they 
are capable of contributing vitally important knowledge and 
experience to the process of moving their homeland toward 
democracy, as well as to the economic and social advancement of 
their fellow countrymen and women. But the extent to which they 
will be able to do so with maximum success is going to depend, 
in my opinion, upon adequate preparation in advance of their 
return home and, in particular, a grounding in practical Burma-
specific methods or strategies for bringing about needed 
changes or reforms of existing structures, policies, and 
practices in the Burmese educational system.
    In attempting to determine the kinds of advanced 
preparation that Burmese students who have been educated abroad 
will need in order to avoid pitfalls and problems that, once 
they return to their homeland could easily frustrate or even 
defeat their efforts to revitalize the educational system and 
other elements of the nation's infrastructure, we should not 
only heed realities of the current situation in Burma, but also 
those that foreign-educated students from developing countries 
beyond Burma have encountered.
    Let me briefly elaborate. Within Burma, the system of 
education, long-impoverished and in disrepair, has become 
practically dysfunctional. United Nations' statistics indicate 
that the Burmese military government spends only 1.1 percent of 
gross domestic product on education. Education at the tertiary 
level has been totally and systematically emasculated by the 
military regime, which regards university students with 
suspicion, if not hostility, as enemies of the government.
    To deter dissident students from organizing anti-government 
demonstrations, Burma's military rulers have ruthlessly shut 
down institutions of higher education for years at a time, and 
have even relocated the campuses of some of them to remote 
areas away from population centers. On the other hand, they 
have shortened the academic year to 4 months in some fields of 
study.
    As of the year 2001, the nation's universities had been 
open for only 3 of the previous 12 years, thereby creating 
enormous backlogs of waiting students, including an estimated 5 
million high school graduates kept in limbo for years waiting 
for admission to universities, while on the other hand tens of 
thousands of university matriculants were waiting for 
institutions to reopen so that they could get on with 
completing their degrees.
    The situation is pretty grim. I think, in conclusion, what 
we need to do is take note of the situation that returnees have 
faced in Afghanistan and Iraq, post-Taliban Afghanistan and 
post-Saddam Iraq, and take steps to help the Burmese students 
who are abroad now who have acquired knowledge and have skills 
that can be used in the rehabilitation of their home country, 
to give them the opportunity to organize and prepare to help 
make that transition as smooth as possible.
    Thank you, Mr. Chairman.
    Senator Brownback. Thank you very much, Mr. Rogers, and 
that's a very thoughtful point. I did not realize that they had 
completely shut down higher education, although it almost 
stands to reason that this regime would do something like that, 
as deplorable as it is, and as much as it absolutely mortgages 
your future if you don't have students coming forward that are 
well-trained to be able to serve the people and serve society.
    Ms. Veronika Martin is an advocate for Refugees 
International. We're delighted to have you here with us today.

            STATEMENT OF VERONIKA MARTIN, ADVOCATE,
                     REFUGEES INTERNATIONAL

    Ms. Martin. Thank you, Mr. Chairman. I would like to thank 
Senator Brownback and Senator Lugar also for organizing this 
hearing, and I would like to thank the Senate for its 
overwhelming support for the people of Burma by passing the 
Burma Freedom and Democracy Act. Having worked with ethnic 
Burmese for more than 10 years, I'm honored to offer testimony 
on behalf of Refugees International.
    Over the last 8 months, RI has conducted two assessment 
missions focused on the human rights and humanitarian situation 
of Burma's ethnic minorities. My testimony will focus on two 
issues, first, the prevalence of rape by Burma's army against 
ethnic minority women, and second, protection problems facing 
Burmese refugees before and after their flight to neighboring 
Thailand or to Bangladesh.
    Refugees International's investigation on human rights 
violations against women and girls documented the widespread 
use of rape by Burmese soldiers to brutalize women from five 
different ethnic nationalities on Burma's eastern border. 
Additional informal research completed on RI's recent visit to 
the western border points to a similar pattern.
    RI conducted interviews with women from the Karen, Karenni, 
Mon, Shan, and Tavoyan ethnicities. In the course of 26 
individual interviews with women and men and two focus groups, 
RI learned of 43 cases of rape or attempted rape, with 23 of 
those confirmed through eyewitness testimony or physical 
evidence. In about one-third of the cases, the confirmed cases, 
the abusers raped the women on military property, and in over 
one-third of the confirmed cases he was an officer in Burma's 
army.
    Rape happened in a variety of circumstances, during forced 
labor assignments, while foraging and farming, during 
incarceration in military camps, and by intrusion into 
families' homes.
    The specific rapes RI documented are but a fraction of 
those perpetrated by Burma's army. Of the 45 ethnic women who 
participated in RI focus groups, 75 percent said they knew 
someone who had been raped. It is clear that rape and increased 
militarization go hand in hand. There is also a direct 
connection between rape and migration. Many women flee Burma 
either because they have been raped, or because they fear being 
raped.
    Rape also occurs while women are in flight. As an example, 
I want to share with you the story of Thay Yu. Thay Yu is Karen 
mother in her forties who was fleeing to Thailand because of 
oppression by the military in her village.
    Near the border of Thailand, a group of six Burmese 
soldiers caught one of the families traveling with her. It was 
a family of four composed of parents, a nursing baby, and a 6-
year-old girl. Thay Yu hid in a nearby bush while soldiers 
killed the baby with a blow to the back of the neck. They then 
raped the mother, while forcing the husband to watch. After 
killing the mother by stabbing her through her vagina with a 
bamboo pole, they shot the husband. The 6-year-old daughter ran 
away and hid in a tree, where Thay Yu collected her and brought 
her to Thailand after burying the bodies of her parents. This 
gruesome story is one of many we documented.
    Widespread rape and human rights abuses against ethnic 
minorities are committed with impunity. The culture of impunity 
contributes to a military atmosphere in which rape is 
permissible. In only two of the 43 cases RI documented were the 
perpetrators punished. These punishments were extremely 
lenient.
    Because the SPDC and, by extension, its army view the 
ethnic minority groups as insurgents, their rape of ethnic 
women is a way of waging war on the civilian populations. By 
engaging in a widespread practice of rape against ethnic 
minority women, Burma's army is violating customary 
international law as well as both national laws and 
international obligations under the multilateral treaties it 
has ratified.
    The SPDC has denounced reports about rape issued by local 
human rights groups, the U.S. Department of State, and RI. They 
have concluded that such reports were fabricated. RI's research 
tells a different story. These rapes are not a deviation 
committed by rebel soldiers. They are part of a pattern of 
abuse designed to control, terrorize, and harm ethnic 
populations through their women.
    RI recommends that the SPDC stop military buildup and begin 
demilitarizing the ethnic areas. The SPDC should further 
fulfill its obligations under the Convention on the Elimination 
of All Forms of Discrimination Against Women, and the 
Convention on the Rights of the Child, both of which it 
ratified.
    The support of 33 United States Senators in signing a 
letter to Kofi Annan last year calling for an investigation 
into the rapes, as well as the United States Department of 
State's own verification of the problem of rape in Burma, have 
demonstrated significant support. The U.S. Congress, and 
particularly the Senate, can continue to play a leading role by 
publicizing human rights abuses committed by the regime and 
continuing to put pressure on the SPDC.
    I would now like to move the focus of this testimony on 
protection problems faced by Burmese refugees and internally 
displaced persons in ethnic minority areas. I have divided this 
testimony into two parts. Each part reviews the situation of 
ethnic Burmese before and after their flight to Thailand or to 
Bangladesh.
    RI has interviewed refugees who fled Burma's eastern and 
western borders from the following eight ethnic groups. These 
include the Karen, Karenni, Shan, Mon, Tavoyan, Rohingya, 
Rakhaing, and Chin. These groups represent Buddhist, Christian, 
and Muslim individuals.
    To discuss the human rights situation in eastern Burma, I'd 
like to share with you a remark made by an older man from the 
Mon ethnic group. He told me, they, referring to the SPDC, 
treated me like an animal, like a dog. They broke my head until 
blood streamed out. My jaws, cheeks, and ribs were broken. The 
SPDC can do what they like. They can kill and rape. We are 
weaker than they.
    Refugees in Thailand indicated they had fled from their 
homes because they could no longer endure abuses such as forced 
labor, torture, forced relocation, rape, property and crop 
confiscation, and summary executions. One Burmese army defector 
interviewed by RI described the instructions given to him by 
his superior, who told him, in the front line, everything in 
the village of the ethnic groups is yours, women, domestic 
animals, you are free to do anything you want. You can even do 
so if you have a wife at home.
    Forced relocation is another form of abuse affecting 
hundreds of thousands of Burmese. Villages are evacuated or 
destroyed, its people forced to move to an area overseen by the 
army. Relocation sites are devoid of schools and health care.
    There are 176 sites that house 350,000 people and an 
estimated 300,000 are on the run or in hiding in Thailand. It 
is estimated there are a million internally displaced persons 
living in eastern Burma. They have practically no access to 
humanitarian assistance. What little information is available 
from these areas indicates that malnutrition, starvation, and 
death from preventable diseases are common.
    The SPDC denies their existence. No U.N. agency or 
international organization has come to their aid. The 
internally displaced of Burma have for the most part been 
abandoned by the United Nations and by the international 
community, who insist on the permission of an illegitimate 
regime to access this population in need of life-saving 
humanitarian assistance.
    In conclusion, I want to refer to our recommendations. To 
address the needs of these forgotten people, RI recommends that 
international organizations push for independent access to 
these IDPs for emergency assistance, that the Royal Thai 
Government allow Burmese fleeing a well-founded fear of 
persecution entry into Thailand and access to humanitarian 
assistance, and that the Royal Thai Government should also 
allow the UNHCR to carry out its refugee protection mandate.
    The United States Government can play a leading role in 
encouraging the cooperation of Thailand, Burma, and the United 
Nations in meeting these objectives by confirming publicly the 
scope of Burma's IDP problem, advocating for independent 
humanitarian access to ethnic minority areas, and providing 
resources for emergency assistance to IDPs. I will refer you to 
our written testimony on more information about abuses of 
Burmese refugees in Thailand, as well as the situation of the 
Muslim Rohingya from Burma who have fled to Bangladesh.
    Thank you for the opportunity to share our findings.
    [The prepared statement of Ms. Martin follows:]

                Prepared Statement of Veronika A. Martin

    I would like to thank Senator Richard Lugar and Senator Sam 
Brownback for organizing this hearing on the development of democracy 
in Burma. I would also like to thank the Senate for its overwhelming 
support for the people of Burma by passing the Burmese Freedom and 
Democracy Act of 2003.
    Having worked with ethnic Burmese for more than 10 years, I am 
honored to offer testimony on behalf of Refugees International (RI). 
Over the last eight months, RI has conducted two assessment missions 
focused on the human rights and humanitarian situation of Burmese 
ethnic minorities. My testimony will focus on two issues: first, the 
prevalence of rape by Burma's army against ethnic minority women in 
Burma; second, protection problems facing Burmese refugees before and 
after their flight to neighboring Thailand and Bangladesh.
Rape of Ethnic Minority Women
    According to Burma's ruling military regime, the State Peace and 
Development Council (SPDC), Burma's army ``safeguards national 
solidarity and peace.'' According to women and men from Burma's ethnic 
minority groups, particularly those living in the ethnic States along 
Burma's eastern and western borders, the army does the opposite. Rather 
than look to the army for protection, ethnic people flee in fear at the 
sight of a soldier. Refugees International's investigation on human 
rights violations against women and girls documented the widespread use 
of rape by Burma's soldiers to brutalize women from five different 
ethnic nationalities on Burma's eastern border. Additional informal 
research completed on RI's recent visit to the western border points to 
a similar pattern.
    Although rape by soldiers in Burma has been a well-known, well-
documented problem for at least a decade, a report by the Shan Women's 
Action Network (SWAN) and Shan Human Rights Foundation (SHRF), License 
to Rape, inspired an unprecedented level of international interest and 
outrage regarding the rapes of women from only one ethnic group. RI's 
research crossed ethnic boundaries to confirm that Burma's military 
frequently rapes women from various ethnic nationalities.
    RI conducted interviews with individuals and focus groups of people 
living in refugee camps, in villages in Thailand and with people still 
living inside Burma. RI interviewed women, men, indigenous NGOs and 
local leaders about sexual violence committed by Burma's armed forces 
against women from the Karen, Karenni, Mon, Shan and Tavoyan 
ethnicities. In the course of 26 individual interviews with women and 
men and two focus groups composed of 45 women, RI learned about 
numerous instances of rape against ethnic women: specifically, 43 cases 
of rape or attempted rape against women from these ethnic groups, with 
23 of those confirmed through eyewitness testimony or physical 
evidence. In about one-third of the confirmed cases, the abuser raped 
the women on military property, and in over one-third of the confirmed 
cases, he was an officer in Burma's army. Rape happened in a variety of 
circumstances: during incarceration in military camps, during forced 
labor assignments, while foraging and farming and by intrusions into 
families' homes.
    The specific rapes RI documented are but a fraction of those 
perpetrated by Burma's army. Every one of the 45 ethnic women who 
participated in the RI focus groups said she had heard about rapes 
occurring in her area of origin, and 75 percent said they knew someone 
who had been raped. It is clear that rape and increased militarization 
go hand-in-hand; when more soldiers are sent to an area, typically more 
rape occurs. It is significant that rape occurs on military property 
because even in those cases where the officer wasn't the one to commit 
the rape, he knew or should have known about it. In the vast majority 
of the cases, the rapes occurred in conjunction with other human rights 
abuses, such as forced labor, forced relocation, forced portering, 
torture, and extrajudicial executions. Furthermore, there is a direct 
connection between rape and migration. Many women flee Burma either 
because they have been raped, or because they fear being raped. Rape 
also occurs while women are in flight.
    As an example of the dangers women face while trying to reach 
safety in Thailand, I want to share with you the story of Thay Yu. Thay 
Yu is a Karen mother in her forties who was fleeing to Thailand because 
of oppression by the military in her village. Near the border of 
Thailand, a group of six Burmese soldiers caught one of the families 
traveling with her. It was a family of four, composed of parents, a 
nursing baby and a six-year-old girl. Thay Yu hid in a nearby bush and 
while soldiers killed the baby with a blow to the back of the neck, 
then raped the mother while forcing the husband to watch. After killing 
the mother by stabbing her through her vagina with a bamboo pole, they 
shot the husband. The six-year-old daughter ran away and hid in a tree, 
where Thay Yu collected her and brought her to Thailand after burying 
the bodies of her parents. This gruesome story is one of many we 
documented. The treatment of ethnic minorities by SPDC soldiers is 
inhumane beyond description.
    Widespread rape and human rights abuses against ethnic minorities 
are committed with impunity, both by officers and lower ranking 
soldiers. Officers committed the majority of rapes documented in which 
the rank of the perpetrator was known. The culture of impunity 
contributes to the military atmosphere in which rape is permissible. It 
also leads to the conclusion that the system for protecting civilians 
is faulty, which in turn suggests the rape is systematic. Due to the 
well-known impunity for rape, survivors and families are extremely 
reluctant to complain about rape. In the rare cases where victims or 
their families actually do complain to military officials, army 
personnel often respond with violence. In only two of the 43 cases RI 
documented were the perpetrators punished--these punishments were 
extremely lenient, such as the payment of 1000 Kyat or the equivalent 
of one US dollar.
    As an example of the impunity granted soldiers I want to share the 
story of Naw Mu Doh who told us she saw soldiers take her sister away 
from their home and transport her to their military camp. She heard her 
sister calling for her brother and father to help her because ``they 
are raping me.'' They could do nothing to help her. A day after her 
sister was taken, the soldiers brought her body back for the family to 
bury. Her wounds indicated clearly that she had been raped, perhaps to 
death. Despite the fact that the soldiers continued to return to their 
village after the murder, Naw Mu Doh and her family were too afraid to 
complain. One month later, her father was killed by the army.
    According to RI's conversations with more than 150 people along the 
Thai/Burmese border over the period of one month, RI's research 
indicates that women from ethnic groups along Burma's eastern border 
experience rape at the hands of Burma's army on a consistent and 
frequent basis. Because the SPDC, and by extension, its army, view the 
ethnic minority groups as ``insurgents,'' their rape of ethnic women is 
a way of waging war on civilian populations. By engaging in the 
widespread practice of rape against ethnic minority women, Burma's 
army, (an arm of the State), is violating customary international law 
as well as both national laws and international obligations under 
multilateral treaties. These treaties include the Convention on the 
Elimination of All Forms of Discrimination Against Women, and the 
Convention on the Rights of the Child, both of which the SPDC has 
ratified. In doing so, the SPDC agreed not only to ensure that their 
activities did not contravene the letter or spirit of the treaty; they 
also agreed to take affirmative steps to realize the commitments 
enumerated in the treaty. By permitting--either actively or tacitly--
Burma's army to rape ethnic women with impunity, the SPDC violates 
these agreements.
    The SPDC has denounced reports about rape issued by ethnic women's 
and local human rights groups, the US Department of State and RI. They 
have conducted their own investigation in Shan State (with the active 
participation of SPDC general Khin Nyunt's wife), which has led them to 
conclude that such reports were fabricated. RI's research tells a 
different story. These rapes are not a deviation committed by rebel 
soldiers; they are part of a pattern of brutal abuse designed to 
control, terrorize, and harm ethnic nationality populations through 
their women.
    On November 19, 2002, the United Nations General Assembly adopted 
by consensus a resolution on the human rights situation in Burma, 
``express[ing] grave concern at . . . rapes and other forms of sexual 
violence carried out by members of the armed forces'' and the 
``disproportionate suffering of members of ethnic minorities, women and 
children from such violations.'' It is clear these abuses are directly 
linked to the internal war the SPDC is waging upon its own citizens. 
Until the violence ceases, and until the SPDC establishes and enforces 
adequate laws prohibiting rape and ends the culture of impunity for 
these horrific crimes, freedom from rape for ethnic women from Burma is 
impossible.
Recommendations
    For there to be any change, the SPDC must first acknowledge the 
epidemic of rape perpetrated by its army before this can change. RI 
further recommends that SPDC stop all military buildup and begin 
demilitarizing the ethnic areas promptly. The SPDC should further 
fulfill its obligations under the Convention on the Elimination of All 
Forms of Discrimination Against Women (CEDAW). This includes ceasing 
all practices and policies, which discriminate against women, including 
violence against women. Furthermore, the SPDC should fulfill its 
obligations under the Convention on the Rights of the Child, which 
prohibits gender-based violence against girl children.
    The UN High Commissioner for Human Rights should ensure that if any 
investigation of rape inside Burma should be conducted by UN officials, 
it is done by experts on sexual violence, with guarantees of full 
access and complete, ongoing security for all witnesses and victims. 
Any restrictions on these terms could endanger the very women the 
investigation is designed to protect and should result in the 
investigation not taking place, or being aborted.
    The support of 33 U.S. Senators in signing a letter to Kofi Annan 
calling for an investigation into the rapes, as well as the United 
States Department of State's own verification of the problem of rape in 
Burma, have demonstrated significant support. The U.S. Congress, and in 
particular the Senate, can continue to play a leading role by 
publicizing human rights abuses committed by the regime and continuing 
to put pressure on the SPDC and the United Nations to meet the 
aforementioned objectives.
Protection problems facing Burmese refugees before and after their 
        flight to neighboring Thailand and Bangladesh
    I would now like to focus this testimony on protection problems 
faced by Burmese refugees and Internally Displaced Persons (IDPs) in 
ethnic minority areas. I have divided this testimony into two parts. 
Each part reviews the situation of ethnic Burmese before and after 
their flight to Thailand and to Bangladesh.
    RI has interviewed refugees who have fled the eastern and western 
borders of Burma for reasons of abuse or because of a well-founded fear 
of persecution by the government from the following eight ethnic 
groups: Karen, Karenni, Shan, Mon, Tavoyan, Rohingya, Rakhaing and 
Chin. These groups represent Buddhist, Christian and Muslim 
individuals.
Human Rights Situation in Eastern Burma Prior to Flight to Thailand
    ``They treated me like an animal, like a dog. They broke my head 
until blood streamed out. My jaw, cheeks and ribs were broken--the SPDC 
can do what they like--they can kill and rape. We are weaker than 
they.'' These are the words of an older man from the Mon ethnic group 
whom we interviewed.
    Refugees interviewed by RI in Thailand indicated they had fled from 
their homes because they could no longer endure the human rights abuses 
by the army. Among those consistently listed were forced labor, 
beatings and torture, forced relocation, rape, property and crop 
confiscation and summary execution. One Burmese army defector 
interviewed by RI described the instructions given to him by his 
superiors: ``In the frontline, everything in the village of the ethnic 
groups is yours--women, domestic animals. You are free to do anything 
you want. . . . you can do so even if you have a wife at home in your 
village.''
    Other forms of abuse consistently levied against ethnic Burmese 
fleeing to Thailand are a result of Burma's worsening economy and 50 
percent inflation. These include forced labor, land confiscation, 
taxation, extortion and rice quotas that interfere with people's 
ability to provide for themselves.
    Some of the most common forms of abuses occurring in eastern Burma 
are forced relocation and its attendant forced labor. Forced relocation 
involves the often-sudden evacuation or destruction of a village and 
forced move of all available villagers to a relocation site overseen by 
the army. Evacuated areas are considered ``free fire zones'' where 
individuals found there may be shot on site. Individuals are then moved 
to relocation sites, settlements devoid of basic infrastructure that 
hold ethnic people hostage to forced labor and abuse. Relocation sites 
have been likened to concentration camps. Since 1996, when the 
government began to implement a stronger counter-insurgency plan, 176 
relocation sites have been documented, housing more than 350,000 
people. An estimated additional 300,000 individuals have chosen to live 
on the run and in hiding, rather than move to these sites.
    In total, it is estimated that there are one million Internally 
Displaced Persons (IDPs) living in eastern Burma. Most are unable to 
plant and harvest. With practically no access to humanitarian 
assistance, reports of malnutrition, starvation and death from 
preventable diseases--to the extent any information is available at 
all--abound. Yet despite documentation of their existence and 
circumstances, no UN agency and no international NGO has come to the 
aid of this population. They have in effect been abandoned by the 
United Nations and by the international community. Only small covert 
efforts conducted over the border have been able to address some of the 
emergency needs of these populations.
    The complete lack of security and access to fundamental goods and 
services, including healthcare and education, as well as the frequent 
subjection to violent human rights abuses, have caused many ethnic 
people from these areas to undergo the dangerous journey across 
militarized and mined areas to enter Thailand. Despite the risk of 
denial of entry at the border by some authorities--an act in violation 
of customary international law--Burmese continue to flee to neighboring 
countries at the rate of three to four thousand per month. Many do so 
only as a last resort, having heard that Thailand may deny them entry 
at the border, deny entrance into refugee camps or subject them to 
abuses as so called ``illegal migrants.'' Despite Thailand's attempts 
to deter Burmese from entering, there continues to be an increase in 
asylum seekers over the past year suggesting that human rights abuses, 
if not increasing, are certainly continuing, as the military struggles 
for total control of ethnic areas.
Recommendations
    To address the needs of these forgotten people RI recommends that 
international organizations push for independent access to these IDPs 
for emergency assistance. To ensure that those fleeing human rights 
abuses or a well-founded fear of them can reach safety RI recommends 
that the Royal Thai Government allow Burmese fleeing a well-founded 
fear of persecution, not ``fighting'' as the current criteria define, 
entry into Thailand and access to humanitarian assistance. The Royal 
Thai Government should also allow the UNHCR to carry out its refugee 
protection mandate, which it has been unable to implement 
appropriately.
    The United States Government can play a leading role in encouraging 
the cooperation of Thailand, Burma and the United Nations in meeting 
these objectives by confirming publicly the scope of Burma's IDP 
problem, advocating for humanitarian access to ethnic minority areas 
and providing resources for emergency assistance to affected 
populations.
Protection of Burmese Refugees in Thailand--The Role of the Royal Thai 
        Government and the UNHCR
    Only a tiny fraction of Burmese who have entered Thailand since 
1984, approximately 120,000 people, have been permitted to live in 
refugee camps. Burmese seeking refuge in Thailand, primarily ethnic 
minorities from eastern Burma, have had no access to a status 
determination process for almost two years, and thus, no access to 
refugee camps or protection and care. As a result, Burmese enter 
Thailand as part of the growing ``illegal migrant'' population. Their 
presence marks the largest migration flow in Southeast Asia, burdening 
neighboring Thailand with an estimated two million Burmese seeking 
either a safe haven from human rights abuses and persecution or the 
opportunity to survive and earn a living, or both. The Royal Thai 
Government classifies all Burmese now entering Thailand as ``illegal 
migrants.'' This misnomer leaves them vulnerable to exploitation and 
forced relocation back to Burma. Legitimate asylum seekers are forced 
to live in limbo on the margins of Thai society either along the border 
or in urban centers.
    Life as an illegal migrant often exposes Burmese to abuse and 
exploitation. This is especially true for women who are trafficked or 
sexually exploited at the hands of Thai authorities. Vulnerable 
individuals such as single mothers, elderly, handicapped or the ill 
have little option but to live on construction sites, in fruit 
orchards, or to work as domestic help with limited or no access to 
healthcare or education for themselves or their children and 
practically no legal redress should they suffer abuses. Abuses by Thais 
against Burmese are common. In one recent incident in May, six 
``illegal migrants'' were shot and burned with the involvement of Thai 
officials. To date, no one has been held accountable.
    The Royal Thai Government has invited United Nations High 
Commissioner for Refugees (UNHCR) to have an extremely limited role in 
Thailand. This limits the UNHCR's ability to protect Burmese refugees 
from classic refugee rights violations such as refoulement, denial of 
entry at the border and unscreened deportations of Burmese who are not 
in camps, but have legitimate asylum claims. UNHCR has also been unable 
to advocate for guarantees that incoming Burmese be allowed to enter 
camps, leaving new arrivals unprotected. Third country resettlement is 
virtually non-existent, at the request of the Royal Thai Government.
    An example of UNHCR's inability to protect legitimate refugees is 
reflected in the case of the Shan people. Since 1996, the Burmese army 
has forcibly relocated over 300,000 villagers in Shan State, resulting 
in a mass exodus to Thailand. Furthermore, the Burmese army's use of 
forced relocation, forced labor and its accompanying human rights 
abuses including rape, have resulted in over 1,000 new Shan arrivals 
per month to only one district in Thailand. Credible estimates place 
the number of Shan refuge seekers in Thailand at well over 150,000. The 
Royal Thai Government, however, has not organized refugee camps for the 
Shan, and UNHCR has been unable to push for any protection or 
assistance for this group.
    To make matters worse, rather than advocate for the Shan as 
legitimate refugees, UNHCR classifies Shan people and other non-camp 
based Burmese as illegal migrants without conducting any status 
determinations. Because there is no admissions process for them to 
undergo and no camps to house them, they have no choice but to live as 
illegal migrants. No schools are available for the children and health 
care is difficult to obtain. Shan women, many of whom have suffered 
from rape and other gender-based abuses, are particularly at risk of 
further exploitation. As one Shan refugee stated, ``It is worse for the 
woman because she has no protection, and this is especially true if she 
has mental or physical problems; generally, there is more problem for 
her survival.''
    Interviews which I conducted while living in Thailand previously, 
with individuals who were forced back to Burma and subsequently escaped 
detention indicate that persecution is common not only for those 
accused of links to resistance groups (such as refugees) but those 
accused of having engaged in labor union activities in factories in 
Thailand. This makes it imperative that UNHCR have a presence at 
deportation sites so that individuals with legitimate claims of 
persecution if they are returned to Burma, can be entitled to certain 
basic protections in Thailand. It is critical that the distinction be 
made between those fleeing a well founded fear of persecution or human 
rights violations, including those violations that cause extreme 
poverty and people motivated only by economic opportunity in Thailand.
Recommendations
    In order to ensure the protection of Burmese in Thailand, RI 
recommends that the Royal Thai Government (RTG) establish a legitimate 
status determination process for Burmese ``illegal migrants'' and allow 
protection and assistance to Burmese fleeing a fear of persecution and 
human rights abuses. Burmese identified as fleeing a fear of 
persecution would be protected by international human rights principles 
and international customary law. This should also apply to the Shan 
people. Furthermore, it is also critical that Burmese about to be 
deported for being ``illegal migrants'' have the opportunity to make a 
claim for asylum as internationally accepted principles of non-
refoulement would prescribe. The UNHCR should work with the Royal Thai 
Government to put in place a procedure to assess the eligibility of 
potential deportees for protection prior to their deportation.
    The United States Government can play a leading role in encouraging 
the cooperation of Thailand, and of the UNHCR in meeting these 
objectives. The U.S. Government can also assist by providing resources 
for basic assistance to vulnerable non-camp-based populations.
Human Rights Situation in Western Burma--prior to flight to Bangladesh
    On Burma's western border RI documented the flight of the Rohingya 
from northern Arakan State as a direct result of Burmese government 
policies. These policies deny them citizenship under the 1982 
Citizenship Law, limit their religious practice, facilitate land 
confiscations for army camps or settlement by Buddhist settlers and 
prohibit them from leaving their villages. Restrictions on Freedom of 
movement limit their ability to access markets, employment, education 
and medical care. Unlike the Buddhist Rakhine who also live in Arakan 
state, or the ethnically dominant Burmans, the Rohingya must pay a 
significant fee in order to register for marriage or birth. As with 
most ethnic groups, RI interviewed Rohingya who were subject to 
persecution and human rights abuses for being accused of links with 
resistance groups. Such discrimination has contributed to a continuing 
influx of Rohingya into Bangladesh, estimated at more than 10,000 in 
2002. This adds to the existing caseload of 21,000 ``prima facie'' 
Rohingya refugees and an estimated 200,000 unofficial Rohingya 
currently living in Bangladesh.
Protection of Burmese Refugees in Bangladesh--The role of the 
        Government of Bangladesh and the UNHCR
    Despite a clear record of discrimination by the Government of Burma 
against Muslim Rohingya, the UNHCR has stepped up repatriation efforts 
in an attempt to phase out its responsibilities to the 21,000 refugees 
residing in camps in Bangladesh. This group remains from the mass 
exodus of 250,000 Rohingya who sought refuge in Bangladesh in the early 
90s. These refugees received ``prima facie'' refugee status, obliging 
UNHCR to protect and assist them. Refugees fleeing similar conditions 
following the mass repatriations in 1994 and 1995, however, were less 
fortunate, having been labeled economic migrants who have no legal 
right to UNHCR's protection and assistance. While conditions for 
Rohingya inside Burma have hardly changed in the last decade, what 
appears to have changed is UNHCR's policy towards Rohingya concerning 
rights to UNHCR protection and support. In less than two weeks, the 
UNHCR is planning to end its role in repatriations of Burmese Rohingya 
to Bangladesh. By the end of the year, they plan to phase out 
assistance with a final pull out anticipated by the end of next year.
    By stepping up repatriation efforts and reducing assistance to 
refugees, UNHCR has created an environment in which protection for the 
Rohingya is virtually untenable. In the course of an assessment mission 
to Cox's Bazaar district in April, where Rohingya refugees live in 
camps and illegally among the local population, RI found clear evidence 
of attempts by camp officials to coerce refugees to return to Burma. 
Methods of coercion which refugees reported to RI include a reduction 
in certain basic entitlements, including food, withholding of medical 
services or pharmaceuticals, forced relocation within the camps to 
poorer housing, beatings, and, most commonly, threats of and actual 
jail sentences.
    Mohammad, a father of six in his thirties, was asked to agree to 
repatriate by camp officials in the presence of UNHCR. When he dared to 
tell UNHCR he did not want to return, he alleges that the camp 
authorities later beat and tortured him until he fell unconscious. He 
was then sent to jail on false charges for more than two years. UNHCR, 
aware of his situation, was unable to help him. Now that Mohammad is 
out of jail, he faces the same predicament. Already the camp leader has 
threatened him with another jail sentence if he does not agree to 
repatriate. ``I have only two choices: I go to jail, or I go back to 
Burma. Going to jail is better than going to Burma,'' he stated.
    A local Government representative, concerned over UNHCR's premature 
withdrawal from its repatriation role, has admitted that, ``UNHCR's 
decision to withdraw from the camps has caused us to try to speed up 
repatriations. The refugees who do not want to return cannot stay here. 
The Government will send them back even if they do not want to go. 
Bangladesh is a poor country and cannot take care of this situation.''
    UNHCR has been unable to ensure that returns are voluntary. UNHCR 
has received dozens of reports of coercion from refugees and other 
concerned sources, but repatriations continue to scale up with no clear 
response to allegations of involuntary returns. Some refugees have 
chosen to leave the camps and live illegally in hiding in surrounding 
towns.
    UNHCR claims that once it disengages from the repatriations, it 
still plans to perform its protection duties. UNHCR's poor record 
monitoring repatriations to date, and the fact that by its own 
admission it is under-staffed, give cause for concern about the future 
of protection for the Rohingya. With responsibility for the camps being 
handed over to the Government of Bangladesh, it is unclear how UNHCR 
will be able to uphold its protection mandate.
    UNHCR insists that refugees have the option of integrating into the 
community once it disengages. As a challenge to this assumption, 
however, one has only to look as far as the slum settlement of 4,000 in 
Teknaf. Government authorities evicted this group of illegal Rohingya 
from their homes in late 2002. They now live in horrendous conditions 
with mortality rates near emergency levels and no means of obtaining 
basic services and protection. As illegal immigrants they are not 
allowed to own land, have access to education and public health care, 
or enjoy the basic rights granted to citizens of Bangladesh. As one 
local authority stated, ``Refugees cannot integrate with the local 
people. They will have to take care of everything for themselves. This 
is difficult in this region when you don't own property.'' Cox's Bazaar 
is one of Bangladesh's poorest and most depressed areas. Further 
``disengagement'' of UNHCR from the Rohingya caseload amounts to 
disengagement from their legal obligation to provide assistance and 
protection to these refugees. The proposed phase out plan is likely to 
leave the Rohingya with limited redress for assistance or protection 
from refoulement or abuse by local authorities.
Recommendations
    In order to give these Rohingya the protection from non-refoulement 
that is their right, RI, recommends that the Government of Bangladesh 
honor the principle of non-refoulement and UNHCR continue its camp-
based assistance and protection role. It is imperative that 
repatriation activities cease until an independent investigation has 
been conducted into the voluntary nature of repatriations. UNHCR must 
strengthen, not weaken its protection activities by increasing its 
presence in the camps and increasing expatriate staff who are not 
subject to local pressures. Donor governments should continue to fund 
humanitarian and protection programs for the Rohingya. Meanwhile, the 
Office of the UN High Commissioner for Human Rights and independent 
human rights monitors should conduct an investigation into the 
discriminatory policies and human rights abuses of the Government of 
Burma against the Rohingya.
    Thank you for the opportunity to share RI's findings with the 
Subcommittee on East Asian and Pacific Affairs.

    Senator Brownback. Thank you, Ms. Martin, for that 
testimony.
    Why do you think the Thai Government has been hesitant in 
something that seems such a clear situation? Why have they not 
been more helpful towards the refugees, more condemning towards 
the Burmese Government?
    Ms. Martin. My sense is that they are very afraid of a 
magnet effect, a so-called pull factor, that if they are more 
hospitable to Burmese who want to enter Thailand, that a great 
percentage of the country of Burma would come into Thailand. I 
think there is great concern that an Indochinese-type refugee 
situation would occur again.
    Nonetheless, there are 2 million Burmese already in 
Thailand, and because Thailand has not allowed them access to 
refugee camps, they're now living illegally, as illegal 
migrants. They don't have access to health care, education, or 
any legal redress, and they are routinely, or they're often 
abused by Thai individuals and authorities as well, so we have 
an underground or illegal population who don't have access to 
assistance, and in their own way are then creating a problem 
with Thailand.
    Senator Brownback. That was my experience at the border. I 
mean, you've got population, and they're going to flee. If 
they're being persecuted, pursued, killed in their own 
communities, they're going to flee, you're going to have that 
situation, and you just create a pool of very vulnerable people 
that Thailand is going to deal with anyway.
    Ms. Martin. Exactly, and I think a perfect example of a 
vulnerable group are the Shan people. This is an ethnic 
minority that has not been allowed any access to refugee camps. 
It's estimated that there are 150,000 in Thailand, and they 
have fled well-documented abuses in Burma, including rape.
    Thailand has not allowed them any sort of assistance, so 
one way that the United States Government could support this is 
to actually have some financial resources for these displaced 
populations in Thailand that are not in camps, particularly 
vulnerable populations such as women and children who are 
forced to live on construction sites and have no access to any 
assistance or protection.
    Senator Brownback. So the United States could provide more 
funds for the refugees in Thailand, and I doubt we're taking 
very many refugees into the United States from Burma, but we 
should.
    Ms. Martin. Right. I think that Thailand is not permitting 
Burmese to leave Thailand, to give them exit permits to enter 
the United States.
    Senator Brownback. So we could press the Thai Government 
about that issue as well.
    Ms. Martin. That's right.
    Senator Brownback. Would that be correct?
    Ms. Martin. That's right, and I think also in terms of 
providing more resources for Burmese in Thailand, that would 
have to go hand in hand with advocacy with the Thais to allow 
that to happen, because at this time, they are not allowing 
international organizations to assist Burmese who are so-called 
illegal migrants. We would argue that many of them are 
legitimate refugees, but at this time Thailand does not allow 
assistance to them.
    Senator Brownback. Because of the lateness of the hour, I'm 
not going to be able to ask many questions, but Mr. Aung, I 
particularly appreciated your testimony and your perseverance; 
I wanted to note that, to be here, and your continued advocacy 
on behalf of the people that continue to suffer. Do you have 
any further policy recommendations? You have put forward some, 
but in reaction to either Senator McConnell's or other 
recommendations that you heard on this panel, or from Lorne 
Craner? Do you have any other thoughts on their policy 
recommendations?
    Mr. Din.  We expect the United States Government will bring 
our issues to the United Nations Security Council to take more 
action. We expect the United Nations Security Council will 
adopt a similar resolution like the Burma Freedom Democracy 
Act, so we would like to ask the United States administration 
to work more actively organizing China and other countries who 
may oppose the idea to bring the situation to the United 
Nations Security Council.
    Senator Brownback. Would anybody on the panel oppose 
tighter United States and global sanctions on Burma? There are 
differing points of view sometimes on this that you hurt the 
people more than you help, but the democracy advocates inside 
Burma have all advocated no, keep the pressure on the regime, 
and I wondered if there was any difference of opinion on that 
in the panel.
    [No response.]
    Senator Brownback. Okay. I wanted to make sure of that.
    Mr. Din.  Mr. Chairman, the most important thing is that 
sanctions is called by Burmese democracy leadership, sanction 
is called by people of Burma inside. The people argue that 
sanctions will hurt some people. Yes, we agree, sanctions will 
hurt some ordinary people, but with a minimum impact, but it 
will be far less than the whole country suffering under the 
military regime. It will be small sacrifice, and then the 
sanctions worked for South Africa. We have seen that, so we 
believe sanctions will work for my country, too.
    And my country has a very unique situation. We have a 
strong political party which won a landslide victory in 1990 
general election. We have Members of Parliament elected by the 
people, who are ready to rule the country. We have strong 
democratic leaders, including Aung San Suu Kyi. We have strong 
people who are ready to sacrifice their life to have freedom 
and democracy, so we believe that sanctions will work for our 
people of Burma.
    Senator Brownback. I think they will, and they will 
particularly be successful if we could get a broader coalition 
internationally to support us with that. I know the 
administration is committed to making that happen as well, 
because these are best if they're done in a large press push 
internationally, for us to push these on forward.
    Yes, Mr. Rogers?
    Mr. Rogers.  Mr. Chairman, I would just add that, assuming 
that the sanctions have the desired effect and bring about a 
change, I think it's terribly important for us to be prepared, 
for the Burmese to be prepared for the transition to a 
democratic government and so on, and so I would advocate 
strongly that our Government take the lead in helping to 
organize for the change-over, the transition, if you will, to 
avoid a chaotic, perhaps even a very violent situation that 
could follow.
    And to the extent that Burmese students returning to their 
home country can play a role in helping a kind of domestic 
Peace Corps, if you will, to get out to all parts of the 
country and help begin the transition peacefully I think would 
be very important.
    Senator Brownback. That's a good suggestion. I want to 
thank very much the panel for being here. Thank you for your 
patience during the recess that we had. Thank you for your 
expertise and your commitment to a free Burma.
    I tell you, I look at these situations around the world, 
and I get to see a fair number of them, but it is really my 
hope and prayer and my belief that dictators around the world 
are on the run, and we're going to keep them on the run. People 
deserve to be free, and if there's anybody anywhere in the 
world that is not free, it takes away from the freedom of all 
of us.
    We should advocate for that, and we should press that, and 
I am hopeful we can get a broad coalition to continue to press 
for the freedom of the Burmese people. They've certainly 
suffered long enough, and it is time they were able to live 
free. Thank you very much for your commitment, and for being 
here.
    [Whereupon, at 4:40 p.m., the hearing was adjourned.]
      

                                    

      

</pre></body></html>
